<html>
<title> - OFFICE OF JUSTICE PROGRAMS OVERSIGHT: EXAMINING THE OJP REORGANIZATION PLAN</title>
<body><pre>[Senate Hearing 106-755]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-755

OFFICE OF JUSTICE PROGRAMS OVERSIGHT: EXAMINING THE OJP REORGANIZATION 
                                  PLAN

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON YOUTH VIOLENCE

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

THE ACTIVITIES OF THE DEPARTMENT OF JUSTICE OFFICE OF JUSTICE PROGRAMS 
              AND EXAMINING A PROPOSED REORGANIZATION PLAN

                               __________

                           SEPTEMBER 16, 1999

                               __________

                          Serial No. J-106-47

                               __________

         Printed for the use of the Committee on the Judiciary



                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
67-858                     WASHINGTON : 2000


                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman

STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire

             Manus Cooney, Chief Counsel and Staff Director

                 Bruce A. Cohen, Minority Chief Counsel

                                 ______

                     Subcommittee on Youth Violence

                    JEFF SESSIONS, Alabama, Chairman

BOB SMITH, New Hampshire             JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              HERBERT KOHL, Wisconsin

                       Kristi Lee, Chief Counsel

                 Sheryl Walter, Minority Chief Counsel

                                  (ii)


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......     1
Ashcroft, Hon. John, U.S. Senator from the State of Missouri.....     8

                    CHRONOLOGICAL LIST OF WITNESSES

Statement of Laurie Robinson, Assistant Attorney General, Office 
  of Justice Programs, U.S. Department of Justice, Washington, DC     2
Panel consisting of Alfred Blumstein, professor, John Heinz III 
  School of Public Policy and Management, Carnegie Mellon 
  University, Pittsburgh, PA; Gene R. Voegtlin, legislative 
  counsel, International Association of Chiefs of Police, 
  Alexandria, VA; and Donna F. Edwards, executive director, 
  National Network to End Domestic Violence, Washington, DC......    24

                ALPHABETICAL LIST AND MATERIAL SUBMITTED

Blumstein, Alfred:
    Testimony....................................................    24
    Prepared statement...........................................    27
Edwards, Donna F.:
    Testimony....................................................    33
    Prepared statement...........................................    36
Robinson, Laurie:
    Testimony....................................................     2
    Prepared statement...........................................    11
Sessions, Hon. Jeff: Prepared statements of:
    Jimmy Gurule, professor of law, Notre Dame Law School........    19
    Mark Soler, president of the Youth Law Center................    22
Voegtlin, Gene R.:
    Testimony....................................................    29
    Prepared statement...........................................    32

                                APPENDIX
                         Questions and Answers

Responses of Laurie Robinson to questions from Senator Sessions..    45
    Chart of the Office of Justice Programs......................    49
    Potential area for clarifications/compromises: Reflected on 
      draft revised chart........................................    50

 
OFFICE OF JUSTICE PROGRAMS OVERSIGHT: EXAMINING THE OJP REORGANIZATION 
                                  PLAN

                              ----------                              


                      THURSDAY, SEPTEMBER 16, 1999

                               U.S. Senate,
                    Subcommittee on Youth Violence,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:07 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Jeff Sessions 
(chairman of the subcommittee) presiding.
    Also present: Senator Ashcroft.

 OPENING STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM 
                      THE STATE OF ALABAMA

    Senator Sessions. We will come to order, and I apologize 
for being caught in another hearing and I couldn't quite get 
out of there at the time.
    I would like to welcome each of you to this hearing of the 
Senate Judiciary Subcommittee on Youth Violence. The Youth 
Violence Subcommittee oversees the Department of Justice's 
Office of Justice Programs. The Office of Justice Programs is 
the Federal Government's primary point of contact for State and 
local law enforcement grants. In the last 6 years, OJP has 
experienced tremendous growth in the number of programs it 
administers. Appropriations for the Office have increased from 
$800 million in 1993 to $4 billion in the current fiscal year, 
a 500-percent increase in funding.
    Now, this $4 billion represents 55 different funding 
streams that must be effectively and efficiently made available 
to State and local law enforcement agencies. Unfortunately, as 
Congress has added new programs piecemeal for OJP to 
administer, OJP has been faced with, and has not, developed a 
coherent overall plan as to that administration.
    An examination of the chart to my right illustrates this 
point. OJP has five budget bureaus, the offices bordered in 
red, headed by presidentially-appointed, Senate-confirmed 
directors, in addition to eight other offices, ranging in focus 
from the Violence Against Women Office, to the Drug Courts 
Program Office, to the American Indian and Alaskan Native Desk. 
The result is duplication and overlap in many areas.
    Let me illustrate the point. If the chief of police of 
Mobile, AL, contacted OJP to request Federal grant assistance 
in combating drug abuse, he would be required to contact at 
least four different offices within OJP--BJA, NIJ, the 
Corrections Program Office, the Drug Courts Program Office--to 
determine what grants might be available.
    Needless to say, this results in frustration on the part of 
our local law enforcement agencies. Moreover, it renders many 
worthy programs inaccessible to local law enforcement who do 
not have Federal grant experts on their staffs to help them 
work through these regulations.
    In addition, OJP has an unparalleled number--six--of 
presidential appointees. While the Assistant Attorney General 
is the head of OJP, there are five presidential appointees who 
do not necessarily answer to her. This could result in a lack 
of coordination among the programs that OJP is charged to 
administer.
    In summary, the current administration of OJP is, it 
appears to me, in need of reform. This means that the 
taxpayers' money is not being spent as wisely as it ought to be 
spent. The current Assistant Attorney General has been charged 
by Congress to evaluate the situation and propose a solution. I 
have had the opportunity to work with Ms. Robinson and I know 
she has taken this very seriously.
    Our forum here today primarily is to review her suggestions 
for change and make sure that the public and the Congress have 
access to it so that we can make any input and suggestions for 
improvement that might be appropriate. So I appreciate Ms. 
Robinson's hard work in this area and I look forward to working 
with her to resolve this problem.
    Would you, Ms. Robinson, please step forward and take that 
chair? It won't be a hot seat today, I am sure.
    Laurie Robinson was appointed by the President and 
confirmed by the Senate as Assistant Attorney General for the 
Office of Justice Programs in 1994. During her tenure, the OJP 
budget has grown significantly. Before joining the Justice 
Department, she served 14 years as Director of the American Bar 
Association's Criminal Justice Section, where she founded the 
ABA Juvenile Justice Center and worked to implement the ABA 
criminal justice standards. She is a Phi Beta Kappa graduate of 
Brown University.
    I have appreciated your professionalism, Ms. Robinson, as 
you have served in this office since I have been in the Senate. 
We have worked together, and I would love to hear your comments 
and views concerning reorganization at OJP.

   STATEMENT OF LAURIE ROBINSON, ASSISTANT ATTORNEY GENERAL, 
    OFFICE OF JUSTICE PROGRAMS, U.S. DEPARTMENT OF JUSTICE, 
                         WASHINGTON, DC

    Ms. Robinson. Mr. Chairman, thank you so much for the 
opportunity in the midst of Hurricane Floyd this afternoon to 
appear before the Congress, and I appreciate very much the 
chance to talk about ways to strengthen the operations of OJP 
and, in fact, to better serve our State and local constituents. 
And I also very much want to thank you, Mr. Chairman, as well 
as the other subcommittee members, for the bipartisan support 
that has really been shown to OJP.
    Before discussing the specific recommendations, I think it 
might be helpful to look at some history here. The Federal 
criminal justice assistance program is now some three decades 
old, and as you noted in your opening statement, it has seen 
tremendous growth in recent years. I think, more importantly, 
the mission has grown as well.
    From the early days of LEAA, when there was essentially 
just one program, we now have, as you noted, 55 separate 
funding streams coming into OJP, and under many of those there 
are, in fact, multiple programs. And while all of us are 
certainly encouraged that crime rates continue to fall, it 
seems to me that the problems of crime that are facing this 
country obviously remain very daunting--issues of gangs, of 
youth crime, family violence, sophisticated cyber crime, and 
certainly the potential for chemical and biological terrorism, 
as you, Mr. Chairman, know from your leadership with the Fort 
McClellan Center.
    These challenges to public safety are, I would contend, 
really greater than ever in our history. So, clearly, one of 
our goals as we move into the next century has got to be to 
ensure that the Federal Government, and specifically here OJP, 
can fulfill its core mission of working as a partner with State 
and local jurisdictions. And as part of that, I think we have 
got to be relentless in pushing to make our programs user-
friendly and easier to access for State and local 
jurisdictions, not just for the Washington and interest group 
insiders.
    While I think we have made great strides toward this over 
recent years, OJP's complicated structure and internal 
redundancies, as you have pointed out, inhibit our ability, in 
the words of the U.S. Army poster, to be all that we can be. 
Our fragmented structure undercuts the ability to advance a 
comprehensive, integrated program that can help State and local 
communities address crime and address juvenile delinquency. And 
with the potential that future budgets may not be as great as 
they are today, I think this challenge for good government 
becomes, in my view, all the more critical.
    As you know, OJP is composed of five bureaus and six 
program offices right now, and my statement for the record 
describes these more fully. Our unusual structure, with the 
five bureaus in one small agency each headed by a presidential 
appointee confirmed by the Senate--and that is a situation that 
is apparently unique across the executive branch--this 
structure has really evolved over our 30-year history as new 
laws led to the creation of new organizational components. And 
I think it is important to emphasize here that this evolution 
has not been political or partisan. It has simply been the 
consequence of a series of actions that have been taken over 
time by both the legislative and the executive branches.
    But in today's world, with the renewed attention to 
customer service, renewed attention to efficient delivery of 
products and services, and certainly to accountability, OJP, 
with its decentralized and overlapping components, runs counter 
to sound management principles. We are the size of many Fortune 
200 companies, and we need to ensure that we are managing those 
resources in the most effective manner possible, particularly 
thinking of ourselves, as we should, as stewards of taxpayer 
money.
    Equally critical, we need to ensure that our complex 
program is understandable and usable, as you point out, Mr. 
Chairman, to the practitioners out there, to local elected 
officials and the like who don't know one OJP bureau or office 
from another, and frankly should not be expected to.
    As you know, Congress triggered this examination of OJP's 
structure in the 1998 appropriations conference report, where 
it directed us to report back information on overlap and 
duplication. The resulting report documented a number of steps 
that we have taken to promote coordination, but noted that 
fundamental problems remain.
    For example, because the statutes creating OJP components 
themselves contain substantial overlap, staff across our 
offices and bureaus frequently field programs addressing the 
same topics, and I want to give you a few illustrations. Four 
of our bureaus and one office work on corrections, four bureaus 
and one office address domestic violence, five bureaus and one 
office work on child abuse, and gang issues are addressed by 
four bureaus. And that list could go on.
    Senator Sessions. Could I interrupt you?
    Ms. Robinson. Certainly.
    Senator Sessions. What is the difference between a bureau 
and an office?
    Ms. Robinson. The bureaus were statutorily created and the 
offices were set up by and large when different, new funding 
streams were created by Congress.
    In response to the overlap report, Congress, in our 1999 
appropriations law, directed the Department to develop a plan 
for a new structure with, ``streamlined, consolidated 
authorities which will ensure centralized management.''
    We had a short period of time to prepare that report, only 
four months, but we thought it was critical that there be 
outreach to the field. So during that time, we interviewed 
about 50 constituent group representatives and criminal and 
juvenile justice practitioners, as well as 50 Justice 
Department and OJP officials. And in addition, both NIJ and 
OJJDP convened special groups to provide input on the issue of 
research and statistics.
    Based on this outreach, a plan was prepared and sent to the 
Hill in March. The new structure proposed in the report does 
not recommend changing the underlying funding stream. It does 
recommend ways to more effectively manage the existing 
programs. It would, for example, eliminate duplication and 
overlap by consolidating grant programs by subject, organize 
grant administration around State desks, consolidate all the 
research in NIJ and all the statistics in BJS----
    Senator Sessions. Ms. Robinson, that light is getting 
yellow, but don't worry about it. Take your time and tell us 
how you see this thing. We want to hear that.
    Ms. Robinson. Great. Thank you, Mr. Chairman.
    And it would also create one information central point for 
people seeking help. My formal statement describes all of this 
in more detail, but there are two aspects of it I would like to 
touch on this afternoon. The first of those is this proposed 
information central point, the point that could really help our 
customers locate the wide array of resources, which could be 
training, technical assistance, publications, grants, and 
information about best practices.
    And like you, here I often think about a local official, a 
local elected mayor, for example, recently elected who may not 
know a BJA from an NIJ from a drug court program office from an 
OSLDPS. And what he or she does know is that their town has a 
growing number of gangs, they have rising school violence; meth 
problems are arising. And my goal for that mayor is that he or 
she can easily reach a knowledgeable person to help them sort 
through the issues, almost like triage in an emergency room, 
someone who can point him the available technical assistance, 
the grant opportunities, best practices, or even link him up 
with other communities that have successfully tackled that kind 
of problem.
    Right now, as you pointed out, Mr. Chairman, that mayor 
would have to go to four or five different sources, each 
addressing only a piece of the problem. And it is common sense, 
but I would point out here that in communities of this country 
and in human behavior there are not these neat little 
compartments and divides. When we look at juvenile gang 
problems, for example, they may be very intertwined with adult 
drug trafficking. When we find domestic violence in a home, 
there may be child abuse as well.
    Turning to a second facet of the plan, the report calls 
for, as I mentioned, consolidating the research in NIJ and the 
statistical work in BJS. And while there has been much support 
for this, I want to point out that many juvenile justice 
advocates have expressed deep concern about OJJDP losing these 
functions, so I want to talk for a minute about that.
    First, and most fundamentally, OJP currently houses two 
research centers whose work is too often compartmentalized and 
disconnected. But more fundamentally, issues relating to human 
development and antisocial behavior cannot be neatly divided 
into an under-18 category and an adult category. In fact, I 
would contend that knowledge about early childhood development 
and about adolescent behavior is critical to our understanding 
adult criminality. Knowledge-building has got to be a unified 
enterprise, not one divided by artificial barriers or by 
bureaucratic territoriality.
    Second, evaluation and research need to be independent if 
it is going to be credible. An arm's length relationship from 
those with a stake in the outcome is critical. That is the 
reason, for example, we don't have the Drug Court Office 
evaluating its own programs, and I think if we did, the results 
would not be viewed as credible.
    But several of the points raised by the critics here I 
think are important. We do want to ensure a close feedback 
connection between research and programs, and the 
reorganization proposal, in fact, embraces and provides for 
such an approach--a research and development cycle with 
research findings informing program development and program 
staff who are experts in their areas helping shape research 
agendas.
    And to help prevent the possibility that juvenile issues 
would get lost within NIJ's broader portfolio, we call for 
creation of an Institute on Juvenile Justice Research within 
NIJ to ensure that these issues receive attention. And I would 
point out that that is similar to the legislation, Mr. 
Chairman, that you all passed here, S. 254.
    As I conclude, three final thoughts. First, I want to 
stress that our goals here are not simply about efficiency. 
They are about setting out a vision for what the Federal 
criminal and juvenile justice assistance, research, statistics 
program should look like to be most effective in helping State 
and local communities.
    Second, we are very aware of the concerns being expressed 
by dedicated people in the juvenile justice, crime victims, and 
violence against women communities about the potential impact 
of the proposal in these areas. Over a number of months, we 
have had the opportunity to have conversations with many of 
them, including meetings with the Associate Attorney General, 
and we plan to continue these dialogs.
    Certainly, our goal in coming forward with the plan was not 
in any way to diminish the importance of these areas--violence 
against women, victims, or juvenile justice. In fact, I think 
it is important that we retain an organization where these 
important voices are not only heard, but heard loudly.
    And in appearing here today, I also want to stress that 
every detail of our proposal is not from our vantage point cast 
in stone. Clearly, we are at the beginning of this process and, 
as I indicated earlier, the timeframe for putting the report 
together was itself constricted. So I think the dialog now 
ongoing is a very healthy one. But I would say, too, that as 
changes are being considered by Congress that the gravest 
mistake, in my view, would be to side-step the issue altogether 
and to leave as is a Federal agency structure that is, in fact, 
unwieldy.
    Finally, an observation. Pressure to just preserve the 
status quo is very, very strong, both from without and from 
within Federal agencies. But from my 27 years working in this 
field, I do see how far we are from being what we should be and 
could be without the decentralized, balkanized structure. And I 
also want to underscore one other thing here about the report's 
recommendations. They are not about me, they are not about any 
of OJP's current leadership; we will all be gone next year. But 
I think they are about striving for changes to help make good 
government.
    So, Mr. Chairman, I appreciate very much the opportunity to 
be here this afternoon and I am very happy to answer any 
questions.
    Senator Sessions. Thank you. Those are direct and I think 
remarks worthy of great consideration. We are talking about $4 
billion. As you said, that is a Fortune 200 sized company. 
Management is important. We simply have got to reach the 
highest degree of productivity and efficiency, but it is not 
just efficiency to save money. It is productivity and 
efficiency to get the service to more people quicker and more 
effectively. Is that what you mean by that?
    Ms. Robinson. Very much. I think that we should never lose 
touch in Washington with the fact that it is the State and 
local officials out there, the criminal and juvenile justice 
practitioners who are our customers. And I think that while 
customer service has become something of a cliche these days 
that it is the touchstone for where we should be here.
    And when I find even within my own agency, within OJP, that 
there are, in fact, people who don't know what is happening 
maybe in a bureau or office on another floor, how we can expect 
elected officials and practitioners in Idaho, Alabama, Oklahoma 
or California to know the difference? We need to make it easy 
for them to access.
    Senator Sessions. It seems to me I have learned one thing 
in my tenure in law enforcement and that is you have to have 
teamwork, and a plan to deal with an area can't be finite. As 
you just noted, there is so much overlap. Drugs are not 
contrary to prosecuting people for burglaries. As a matter of 
fact, you ought to prosecute burglaries and if you find out 
they are on drugs, drugs ought to be confronted. If they have a 
mental illness, as we were just in a recent panel on the health 
committee--if they have got a brain injury, discovering that 
can help perhaps reduce criminality. So it is all the 
combination of the various programs.
    You need to have as much cooperation and coordination, and 
when a person asks for a grant or for money for their city, I 
believe--and I will ask you if you would tend to agree--that it 
is often suggested to them that they narrow their focus and 
focus on this program or that program that has a rather 
discreet benefit for them. Is that true?
    Ms. Robinson. Yes, Mr. Chairman, I think that is exactly 
the case. Many of the existing funding streams are very narrow, 
and therefore when a jurisdiction is, for example, approaching 
OJP for help, let's say, on juvenile drug use, they may not 
look at the fact that they need to address the adult drug 
trafficking along with that, but that would be handled out of a 
different part of OJP.
    And the thought with this information center is not a 
clearinghouse with an 800 number that has a computerized list. 
The thought here is that there would, in fact, be expert, 
knowledgeable people who could help the jurisdiction sort 
through the issues before them, to say maybe you need technical 
assistance with law enforcement from here, maybe you need a 
prevention program in your schools from over there, maybe you 
need to be looking at the array of training programs that are 
available here, to pull it all together for them, to have a 
comprehensive approach which all of us know is the way to 
successfully address these issues.
    Senator Sessions. Well, I certainly agree with that. There 
is no one factor that causes crime or delinquency. It is a 
multiplicity of factors, and to take it piecemeal, as we have 
done in the past, is unwise, in my view. And when you get 
people together, as I have in the city of Mobile--we had the 
mayor, the chief of police, the sheriff, the district attorney 
personally, and we spent a year meeting to discuss things.
    The education system, the probation officers, the mental 
health people--when all of those get together and you look at 
juvenile crime, for example, as a comprehensive whole, you can 
begin to develop how to fix it. And so I would encourage, 
however you do it--and I know it would not be easy because a 
lot of the money you get comes from Congress with specific 
requirements on it. But the extent to which you could encourage 
them to have multidisciplinary approaches to these things, and 
somebody when they talk with them about a grant can say I 
believe we can get some more from this account for your 
education wing, or this for your mental health, this for drug 
treatment, this for incarceration, and help develop a 
comprehensive program, I believe, is better.
    Do you think, in your view, this new organization that you 
have proposed would move us in that direction?
    Ms. Robinson. Yes, Mr. Chairman, I think it would, and I 
would like to reiterate we are not wedded to every detail of 
this plan. I think we have gotten some very helpful feedback 
from a number of the organizations in the field, but there are 
some central tenets, some central principles to it, and one of 
those is this information center point, the ability to access 
all of the resources that the Federal Government makes 
available, a critical piece of which is technical assistance. 
It may not be big money, but we can give them some help.
    Senator Sessions. Thank you. I am glad to see Senator John 
Ashcroft, of Missouri, is here. John served as attorney general 
of the State and as Governor of Missouri before coming here, 
and served on the Judiciary Committee and has played a key role 
in the development of juvenile justice policies and all 
criminal justice policies of the Judiciary Committee.
    Senator Ashcroft.

STATEMENT OF HON. JOHN ASHCROFT, A U.S. SENATOR FROM THE STATE 
                          OF MISSOURI

    Senator Ashcroft. Let me just thank you, Mr. Chairman, and 
thank the distinguished Assistant Attorney General for her 
participation in the event.
    I don't think there is any problem that is quite as 
distressing as the problem of juvenile violence and youth 
crime, and I don't think there is any one that calls us more 
compellingly to try and do what we can to solve it than this 
one. So I commend you, and I would hope that we can all work 
together to learn how we best deploy the resources we have and 
make those resources available on the ground, not just to 
satisfy interest groups, but to try and find ways to actually 
meet the challenge of juvenile violence which sort of mars the 
future in ways that are totally unacceptable.
    Thank you for holding the hearing.
    Senator Sessions. Thank you. Would you like to ask any 
questions at this point?
    Senator Ashcroft. No. Thank you, Mr. Chairman.
    Senator Sessions. Some have suggested, and I know my 
experience with governmental agencies is that once you get to 
know somebody in a bureau or something, you are nervous about 
change. There are groups that have supported some of the 
legislation that has created programs and created funding, and 
they care deeply about those issues. And some might say, well, 
you are trying to build a power play here to consolidate power 
in your office and are going to diminish my number one concern.
    How would you answer that?
    Ms. Robinson. I think that is actually a very legitimate 
question to be asking, Mr. Chairman. First of all, as I 
indicated earlier, this is not about power for me. I intend to 
leave next year, and I will tell you if I could get this 
effected, I would probably walk out the next day and leave the 
implementation then to someone else.
    But it is very much an issue of needing to balance the 
recognition of very real and very important interests within 
the broad array of criminal and juvenile justice. And I don't 
in any way diminish the issues that have been raised. I think 
crime victims are a very important area. I think the area of 
juvenile crime, as Senator Ashcroft indicated, is very 
important, and that there are issues in those areas where 
advocacy groups, where practitioners in those areas need to be 
raising concerns directly to Federal agencies and have open 
dialog on a continuing basis.
    Maybe there are issues that we are overlooking in our 
research agenda or in the technical assistance and training 
that we are putting together. And it is, in fact, important to 
have those voices heard. At the same time, I think having an 
overly decentralized organization runs so counter to sound 
management and to effectively getting the job done, to spending 
the money in a wise way, to really being responsive to the 
field, that to do nothing here is what would really be the 
mistake.
    Senator Sessions. Well, it seems to me that it does raise 
some internal conflicts. I know Mr. Gurule--I don't believe he 
was able to make it here today, but expressed some similar 
concerns--he served in a previous administration--that it does 
cause some real difficulties in management. And if you are 
committed to your goal, that is important.
    It seems to me that many of these agencies are mature now 
than they were. You have got the Office of Justice Programs, 
Juvenile Justice and Prevention, BJA. Maybe in their initial 
startup, somebody wanted somebody who really wanted to drive 
those issues and move them, and that may be less important 
today than it was when it started. Would you comment on that?
    Ms. Robinson. Yes; I think your observation is a good one 
that historically when particular programs and then the offices 
to work on those issues were set up, there may not have been 
the recognition that you referenced a few minutes ago about 
multidisciplinary approaches, about thinking collectively 
across the system, about bringing all of the resources to bear.
    We know that very compartmentalized and segmented and 
narrow approaches are not going to solve these problems. So we 
need to think creatively about the best way to both listen to 
and hear the individual voices, but go forward with an 
integrated and comprehensive approach.
    Senator Sessions. Well, I think you are on the right track, 
and how we get there I am not sure, but I congratulate you for 
stepping up to the plate and proposing some changes.
    How long has this agency basically been unchanged?
    Ms. Robinson. 1984 was our last statutory overhaul.
    Senator Sessions. And I know government officials get 
irritated when you say that wouldn't happen in private 
business, but many private businesses are in constant change 
everyday. Every week, they are refining and reevaluating how 
they can produce more services or better quality products at 
less cost. And you are handicapped by laws passed by the 
Congress. You are handicapped by institutional inertia, special 
interest groups who don't want to see any change. And every now 
and then--this has been about the appropriate time, I think, to 
come forward and see if we can't make some change.
    Now, there was a concern expressed about consolidating all 
research in the Office of Justice Programs into the National 
Institute of Justice. First, let me say Senator Fred Thompson, 
who chaired this subcommittee before I came here, came to the 
basic conclusion that the most important thing the Federal 
Government can do is to figure out what works in crime, what 
works in juvenile justice, and help the States achieve it, but 
not to try to run those programs. So he thought before anything 
else was done, we ought to have enhanced research, the things 
we just didn't know about crime.
    Do you think this will strengthen good research and help us 
achieve that goal, or how would you defend this proposed 
change?
    Ms. Robinson. I think it would very much strengthen our 
knowledge development and research and evaluation if we were to 
proceed with the reorganization and consolidate it. Right now, 
as I mentioned in my statement, we have two separate areas 
within OJP where research is being done. Both of them are very 
well-intentioned, but they are too often fragmented and not 
coordinating sufficiently.
    But I think more fundamentally and more importantly, we 
need to as a kind of intellectual exercise think collectively 
about these very difficult problems relating to human behavior, 
and there are not very easy demarcations at age 18, the 
problems of a 16- versus an 18-year-old, of a 17- versus a 20-
year-old. We need to think of this in a continuum and pull all 
of the best thinking together to find the answers. Senator 
Thompson is absolutely correct that we need that as a basis for 
moving forward in programming. We are spending a tremendous 
amount of money through OJP, $4 billion a year in money out to 
States and localities, and we need to help them in knowing the 
things that really can make a difference in addressing 
delinquency and addressing crime.
    Senator Sessions. Well, I am going to give you a tough 
challenge, and it is going to be briefly because we do have a 
vote now. Can you just look at that proposed chart there? Maybe 
somebody could get it a little closer to you, maybe even point 
it out.
    Ms. Robinson. No; that is fine.
    Senator Sessions. Can you tell us the purpose and vision 
that you have that is shown in that chart?
    Ms. Robinson. Certainly; the research would all be in the 
National Institute of Justice, on the upper left, all of the 
statistical work in the agency in the Bureau of Justice 
Statistics, on the upper right. The offices down on the left 
would be consolidation of program work by subject area. The 
Juvenile Justice Office then is next to that.
    The third box over on the second line is the information 
central point, the triage point, and over on the right the 
State desks that could help with the grants management, that 
could be responsive so that one person knows all of the grants 
going to Alabama, going to Iowa, going to Missouri.
    Senator Sessions. And if I were a mayor or a chief of 
police and I wanted to talk to somebody about how I can 
strengthen my effort against drugs, is there any doubt who you 
should call under this chart?
    Ms. Robinson. You could go right into the information 
central point, that third box, and find out everything 
available from across OJP.
    Senator Sessions. And then there would be individual desks, 
so over the years people would get to know their State 
counterparts or people they are working with?
    Ms. Robinson. That is correct. Right now, we have a 
situation where there would be 11 or 12 people who would work 
on Missouri. We need one area that can be responsive.
    Senator Sessions. All right, and you would still have areas 
such as violence against women or substance abuse, those kinds 
of departments and groups within the OJP?
    Ms. Robinson. Yes, we certainly would, and the violence 
against women is certainly one of high priority to the 
administration and to OJP, and would continue to be an 
important leadership point for that work.
    Senator Sessions. Let me just say this. I think it would be 
best for us to vote now, and so maybe we can take a 10-minute 
recess. It will take us that long to go and cast our vote and 
get back, and then we can take the second panel.
    I really appreciate your testimony and leadership. I know 
you have taken this very seriously. I believe you consulted 
with quite a large number of interested parties both within the 
Department and outside the Department. It is not going to be 
easy to make changes. Change scares people; it is a frightening 
experience. Sometimes, we can do wrong making change, but I 
think it is about time for this agency to review itself, to ask 
itself quite clearly, can we do a better job of utilizing the 
$4 billion and get it down to people who are going to be using 
it in the most effective and efficient and fair way so that the 
most possible benefit to the largest number of people can 
occur. I do think it is time for us to ask that, and just 
because Congress did something 20 years ago doesn't mean it 
can't be changed today.
    Thank you. We will temporarily recess and we will be back 
in maybe 10 minutes. Thank you.
    [The prepared statement of Ms. Robinson follows:]

                 Prepared Statement of Laurie Robinson

    Mr. Chairman and Members of the Subcommittee: I appreciate this 
opportunity to talk about the efforts underway at the Department of 
Justice to improve the operations of the Office of Justice Programs and 
to enhance our ability to serve the needs of state and local law 
enforcement in this country. I also want to thank you, Mr. Chairman, 
and the other Members of this Subcommittee for the bipartisan support 
you have given OJP in working toward this mission.
    Before discussing our specific recommendations for helping OJP 
better serve its state and local constituents, it may be helpful to 
step back and look at the broader picture: The federal criminal justice 
assistance program, now some three decades old, has seen tremendous 
growth in recent years thanks to support from the Congress and the 
Administration. For example, when I began my tenure with the Department 
in 1993, OJP's budget was around $800 million. Now, we are managing a 
nearly $4 billion budget.
    More importantly, our mission has grown, as well. From the early 
days of the agency 30 years ago, when there was basically one program, 
there are now 55 separate funding streams coming into OJP, and multiple 
programs under many of these. And while we are encouraged that crime 
rates continue to fall in virtually all categories, the problems of 
crime which we face in the country--gangs, family violence, youth 
violence, and even the potential for chemical or biological terrorist 
attacks--make the challenges of public safety today greater than ever 
in our history.
    One of our greatest challenges, as we move into the next century, 
is to ensure that the federal government--and specifically OJP--
fulfills its core mission of helping communities prevent and control 
crime, and serves as a true partner to the state and local communities 
whom it serves. In my view, we have to be relentless in pushing to make 
our programs more ``user friendly'' and easier for state and local 
jurisdiction's to access. While we have, I believe, made enormous 
strides in working with communities on issues ranging from juvenile gun 
violence and prevention to violence against women and offender drug 
addiction, the complicated structure of OJP inhibits our ability to--in 
the words of the Army recruitment posters--``be all that we can be.'' 
The current fragmented structure of the agency undercuts our ability to 
advance a comprehensive and integrated program to address crime and 
juvenile delinquency. And as budgets for future years are likely to 
face greater constraints, this challenge for ``good government'' 
becomes more critical.

                       OJP'S BUREAUS AND OFFICES

    As you know, Mr. Chairman, OJP is currently comprised of five 
program bureaus and six program offices. The OJP program bureaus are:

  <bullet> The Bureau of Justice Assistance (BJA) provides funding, 
        training, and technical assistance to state and local 
        governments to combat violent and drug-related crime and to 
        help improve the criminal justice system. Its programs include 
        the Edward Byme Memorial State and Local Law Enforcement 
        Assistance formula and discretionary grant programs and the 
        Local Law Enforcement Block Grants (LLEBG) program. BJA also 
        administers the new Bulletproof Vest Grant Partnership Program, 
        the State Criminal Alien Assistance Program, and the Regional 
        Information Sharing System (RISS) Program.

  <bullet> The Bureau of Justice Statistics (BJS) collects and analyzes 
        statistical data on crime, criminal offenders, crime victims, 
        and the operations of justice systems at all levels of 
        government. It also provides financial and technical support to 
        state statistical agencies and administers special programs 
        that aid state and local governments in improving their 
        criminal history records and information systems.

  <bullet> The National Institute of Justice (NIJ) supports research 
        and development programs, conducts demonstrations of innovative 
        approaches to improve criminal justice, develops new criminal 
        justice technologies, and evaluates the effectiveness of OJP-
        supported and other justice programs. NIJ also provides major 
        support for the National Criminal Justice Reference Service 
        (NCJRS), a clearinghouse of information on justice issues.

  <bullet> The Office of Juvenile Justice and Delinquency Prevention 
        (OJJDP) provides grants and contracts to states to help them 
        improve their juvenile justice systems and sponsors innovative 
        research, demonstration, evaluation, statistics, replication, 
        technical assistance, and training programs to help improve the 
        nation's understanding of and response to juvenile violence and 
        delinquency.

  <bullet> The Office for Victims of Crime (OVC) administers victim 
        compensation and assistance grant programs created by the 
        Victims of Crime Act of 1984 (VOCA). OVC also provides funding, 
        training, and technical assistance to victim service 
        organizations, criminal justice agencies, and other 
        professionals to improve the nation's response to crime 
        victims. OVCs programs are funded through the Crime Victims 
        Fund, which is derived from fines and penalties collected from 
        federal criminal offenders, not taxpayers. OJP's six Program 
        Offices are:

  <bullet> The Violence Against Women Office (VAWO) coordinates the 
        Department of Justice's policy and other initiatives relating 
        to violence against women and administers grant programs to 
        help prevent, detect, and stop violence against women, 
        including domestic violence, sexual assault, and stalking.

  <bullet> The Corrections Program Office (CPO) provides financial and 
        technical assistance to state and local governments to 
        implement corrections-related programs, including correctional 
        facility construction and corrections-based drug treatment 
        programs. The Drug Courts Program Office (DCPO) supports the 
        development, implementation, and improvement of drug courts 
        through grants to local or state governments, courts, and 
        tribal governments, as well as through technical assistance and 
        training.

  <bullet> The Executive Office for Weed and Seed (EOWS) helps 
        communities build stronger, safer neighborhoods by implementing 
        the Weed and Seed strategy, a community-based, multi-
        disciplinary approach to combating crime. Weed and Seed 
        involves both law enforcement and community-building 
        activities, including economic development and support 
        services. United States Attorneys are essential partners in the 
        implementation of Operation Weed and Seed in communities 
        throughout the country.

  <bullet> The Office of the Police Corps and Law Enforcement Education 
        (OPCLEE), which in November 1998 was moved by the Attorney 
        General to OJP from the Justice Department's Office of 
        Community Oriented Policing Services (COPS), provides college 
        educational assistance to students who commit to public service 
        in law enforcement, and scholarships--with no service 
        commitment--for dependents of law enforcement officers who died 
        in the line of duty.

  <bullet> The Proposed Office of State and Local Domestic Preparedness 
        Support (OSLDPS) is responsible for enhancing the capacity and 
        capability of state and local jurisdictions to prepare for and 
        respond to incidents of domestic terrorism involving chemical 
        and biological agents, radiological and explosive devices, and 
        other weapons of mass destruction (WMD). It awards grants for 
        equipment and provides training and technical assistance for 
        state and local first responders.

    In addition, OJP's American Indian and Alaskan Native Office (AI/
AN) improves outreach to tribal communities. AVAN works to enhance 
OJP's response to tribes by coordinating funding, training, and 
technical assistance and providing information about available OJP 
resources.
    This unusual structure with five bureaus each headed by a 
Presidential appointee confirmed by the Senate and six offices managed 
by the Assistant Attorney General has evolved over our 30-year history, 
with various statutes and Administration programs leading to the 
establishment of one new ``box'' or organizational component or another 
to address that specific issue. I think it important to emphasize that 
this evolution has not been political or partisan. In fact, it is 
simply the consequence of various actions by both the legislative and 
executive branches.

                     NEED FOR CUSTOMER ORIENTATION

    However, in today's world, with a renewed attention to customer 
service, efficient delivery of products and services, and 
accountability to stakeholders, today's OR with its many agencies and 
offices acts in opposition to the mantra of modern management, which 
is, to first be responsive to one's ``customers.'' We must bring our 
``business'' of criminal justice and juvenile justice leadership and 
change into line with modern management practices and greet the new 
millennium with forward vision.
    As you can see from this ``alphabet soup'' of agencies, not only 
are there opportunities for overlap and duplication, but for our 
``customers''--government leaders, state and local criminal and 
juvenile justice practitioners and researchers, and you, the Congress--
it is a difficult organization to navigate--even with ``maps,'' such as 
our program plans, reports, and dynamic Website.
    In recognition of this increasingly complex situation, in Fiscal 
Year 1998 the Congress asked me to report on the extent of coordination 
within the agency and the steps overtaken to reduce duplication of 
effort. Noting that OJP had made substantial progress in its 
coordinating efforts, the Congress still evidenced its concern about 
the stewardship of the funds they were appropriating and so, in the 
Fiscal Year 1999 Appropriations Act the Congress directed the OJP 
Assistant Attorney General and the Justice Department to develop a plan 
for ``a new organizational structure with streamlined, consolidated 
authorities, which will ensure centralized management'' of OJP programs 
and submit the plan to the Congress by March 1, 1999.

                    DEVELOPING A REORGANIZATION PLAN

    In response to this Congressional directive, the Department 
developed a plan for a new OJP organizational structure that would 
enhance OJP's stewardship of criminal and juvenile justice grant-in-aid 
initiatives.
    The Department undertook a concerted, four-month long effort to 
seek out and consider the ideas and observations of as large and as 
representative a group of officials, both within and outside the 
Justice Department, as time and resources would permit. This outreach 
effort involved telephone interviews and in-person meetings with some 
50 Justice Department officials and dozens of public and special 
interest group representatives and criminal and juvenile justice 
practitioners. In addition, both the NIJ director and the OJJDP 
administrator convened special focus groups to discuss research and 
statistics issues.
    Based on the thoughtful comments and recommendations of these 
various groups and individuals, as well as direction from Congressional 
conferees, the Justice Department devised a reorganization plan for OJP 
and submitted the plan to the Congress on March 10, 1999. Mr. Chairman, 
I have provided the Subcommittee with a copy of the Report to Congress 
and ask that it be submitted for the record.

                ELEMENTS OF THE REORGANIZATION PROPOSAL

    The plan would streamline and consolidate functions within the OJP 
infrastructure and eliminate duplication and overlap of agency 
functions by integrating similar and related responsibilities into 
coherent organizational components. This represents a move away from 
the historical practice of creating separate, and virtually 
independent, agency bureaus and program offices to administer specific 
federal funding streams authorized by the Congress.
    In line with that, the plan sets forth a new OJP organizational 
structure under which the overall authority for the management and 
administration of OJP programs and activities would be vested with the 
OJP Assistant Attorney General (OJP/AAG). As under current law, the 
OJP/AAG would carry out the duties and responsibilities of that office 
under the general authority of the Attorney General. Further, to meet 
the objective of centralizing administrative authority within OJP, and 
in the interest of sound management, the plan would eliminate the 
Senate-confirmed presidentially appointed directorships of the existing 
five OJP bureaus, yet retain political appointments for these key 
positions, which I will describe in a moment.
    The new organizational structure would preserve the integrity of 
the more than 50 congressionally mandated funding streams currently 
managed by OJP, while enhancing the efficiency, effectiveness, and 
accountability of its program and administrative functions. The plan 
proposes a new OJP structure comprised of a research institute, a 
statistical office, two programmatic offices, two program support 
offices, and six administrative offices.
    The six substantive offices of the new OJP structure would be: the 
National Institute of Justice; the Bureau of Justice Statistics; the 
Office of Criminal Justice Programs Development; the Office of Juvenile 
Justice and Delinquency Prevention Programs; the Office of State and 
Local Information Transfer; and the Office of Formula Grants/State 
Desks.
    The National Institute of Justice (NIJ) would assume responsibility 
for all OJP research and evaluation activities, including those 
currently administered by OJJDP's National Institute of Juvenile 
Justice and Delinquency Prevention. Juvenile justice and delinquency 
prevention-related research and evaluation would be managed by a new 
Institute for Juvenile Justice Research (IJJR) within NIJ. IJJR would 
engage in regular consultation with the new Office of Juvenile Justice 
and Delinquency Prevention Programs to develop juvenile justice 
research and evaluation plans and programs. Similarly, NIJ would 
consult with the various OJP program offices in developing research and 
evaluation plans, programs, and strategies, and the OJP program offices 
would consult with NIJ in developing grant, technical assistance, and 
training programs.
    The goal of the Department's proposal is not to take away from the 
research effort in any one area, but rather to work towards the 
knowledge-based program testing, evaluation, and replication cycle 
envisioned in the Safe Streets Act of 1968, the original authorizing 
legislation. In addition, the proposal would continue the central and 
independent role of federally supported research and ensure that 
federally supported criminal and juvenile justice research and 
evaluation continue to be a high priority for the Justice Department.
    The Bureau of Justice Statistics (BJS) would have responsibility 
for all OJP statistical collection and analysis-related plans, 
programs, and strategies. The development of these plans, programs, and 
strategies would be carried out in consultation with the various OJP 
program offices. Likewise, the various OJP program offices would 
consult with BJS in developing grant-funded initiatives to ensure that 
statistical knowledge informs the programmatic work of the agency.
    To ensure that juvenile justice continues to be a prominent and 
visible focus for OJP and the Justice Department, the new 
organizational structure proposes to retain a separate juvenile justice 
office. The Office of Juvenile Justice and Delinquency Prevention 
Programs would have lead responsibility, and leadership role, within 
OJP for developing juvenile justice and delinquency prevention plans, 
programs, and strategies. The new Juvenile Justice Office would retain 
responsibility for monitoring state formula grant recipients' 
compliance with Congressional mandates under the Juvenile Justice and 
Delinquency Prevention (JJDP) Act, although the ministerial paperwork 
functions associated with awarding of these grants would take place 
under the Office of Formula Grants/State Desks. In addition, because of 
its subject area expertise, the new Juvenile Justice Office would work 
closely with NIJ's Institute of Juvenile Justice Research and BJS in 
formulating those offices' juvenile justice-related research and 
statistical work.
    The Office of Criminal Justice Programs Development would be 
comprised of offices, each of which would be responsible for program 
development-related activities in a general substantive subject area: 
crime victims; violence against women; community-based programs; law 
enforcement; adjudication; technology and information systems; 
corrections; counter terrorism; and substance abuse. Our goal with this 
structure is to be flexible enough to accommodate new issue areas if 
and as they arise.
    This proposal specifically responds to practitioner concerns that 
the existing OJP administrative structure fosters a fragmented approach 
to topical criminal justice issues and creates duplication, overlap--
and sometimes conflict--among related OJP program initiatives. The 
proposed restructure would help to build substantive knowledge and 
expertise in each respective section and would facilitate the 
formulation of comprehensive, cohesive, cross-disciplinary strategies 
for addressing crime.
    In addition to policy, planning, and program development, the 
Office of Criminal Justice Program Development would also develop, 
implement, and manage technical assistance and training programs.
    The Office of Formula Grants/State Desks would assume all routine 
grants management, administration, and program and project monitoring 
functions for all congressionally authorized formula and block grant 
programs currently administered by OJP. The state desks would be 
organized geographically and comprised of five sections, each of which 
would cover one geographical region: Northeast, Southeast, North 
Central, South Central, and West. Each state would be assigned to one 
of these regions. Our state and local customers will be able to contact 
a specific individual who is responsible for overseeing management, 
administration, and monitoring of all formula and block grants within 
that state. In addition, state desk staff would be responsible for 
transmitting knowledge and assistance to the states, not simply for 
processing grants, and my expectation is that each state desk officer 
would be intimately familiar with that state, and its special needs and 
issues, and serve as a ``broker'' in its accessing help from OJP.
    The Office of State and Local Information Transfer would provide a 
``one stop shopping'' capacity for information concerning the 
organization, grant programs, technical assistance, training, and other 
resources of OJP. In virtually every OJP constituency focus group 
conducted in recent years, as well as in interviews conducted during 
the development of the reorganization proposal, criminal and juvenile 
justice practitioners have described problems encountered in accessing 
information about OJP-administered technical assistance and training 
resources.
    The Office of State and Local Information Transfer would serve as a 
de facto ``traffic cop'' in directing OJP constituents to available 
training and technical assistance and information on ``what works'' and 
grant opportunities. In addition, the new office would be charged with 
the primary responsibility within OJP to convey knowledge and 
information to state and local constituencies and others, including the 
printing and dissemination of OJP publications.
    In thinking about customer service, I've often thought about the 
newly elected official of Smalltown, USA. This new mayor doesn't know a 
BJA from an OJJDP from a DCPO or an OSLDPS. What he or she does know is 
that their town has a gang problem, or a methamphetamine problem, or a 
rising crime rate. My goal for this mayor is that he only has to make 
one phone call to our Information Transfer Office, where a 
knowledgeable staffer-like triage--can sort through the problems that 
jurisdiction faces, point to available grant programs, technical 
assistance and training opportunities, printed or Internet materials, 
and to other similarly situated communities that have successfully 
attacked the specific problem. In many respects, this new office is one 
of the most essentially needed functions we must implement to ensure 
that those who are most affected by crime and issues of public safety 
in the country have an easy way to access the many resources, and the 
knowledge and help, we can bring to bear.

        CONCERNS EXPRESSED ABOUT ELEMENTS OF THE REORGANIZATION

    Concerns have been expressed by a number of organizations and 
practitioners about some recommendations contained in the OJP 
reorganization proposal, particularly as they affect juvenile justice, 
crime victims, and violence against women. Let me address each of 
these:

  <bullet> Juvenile Justice: Juvenile justice practitioners and 
        advocates have opposed the proposed changes to OJJDP on the 
        basis that they would diminish needed attention and visibility 
        to juvenile issues within the Department of Justice and OJP, as 
        well, they argue, as undercutting OJJDP's ability to deliver 
        services and information to the field. Let me state at the 
        beginning that the Administration--and Attorney General Janet 
        Reno--remain strongly committed to ensuring priority attention 
        to juvenile justice, youth violence, and children's issues in 
        general.
    Many observers may be unaware that, at this time--with the focused 
national attention on juvenile crime over recent years--virtually all 
of OJP's 11 program offices and bureaus are now addressing juvenile 
justice in some fashion. For that reason, the restructure proposal 
calls for all OJP-related program work on juvenile justice to be 
overseen by the Juvenile Justice Office, whether or not it is supported 
under the funding streams currently administered by OJJDP. This could 
ensure more coordinated, focused, and effective attention to the issues 
surrounding juvenile delinquency and prevention.
    Underscoring its leadership role, the Juvenile Justice Office would 
continue, under the plan, to have responsibility for all discretionary 
grants, technical assistance, training, and publications development 
relating to juvenile delinquency, youth violence, and prevention. In 
addition, the Juvenile Justice Office would continue to have all 
responsibility for policy, conceptualization, and oversight of the 
juvenile-related formula grants, with routine grant management support 
from the proposed state desks.
    The plan also calls for consolidation of all research across OJP 
into NIJ and all statistics into BJS; this has triggered much concern 
in the juvenile justice community. The Department's goals in making 
this recommendation are several. First, while acknowledging the 
excellence of work in this area by OJJDP, especially in recent years, 
the Department made the judgment, after much consideration, that 
consolidation can help ensure a higher quality of product and value to 
the field by pulling together the knowledge and expertise of both adult 
and juvenile researchers. Issues of human development and anti-social 
behavior cannot be neatly divided into an ``under 18'' category and an 
adult category. In fact, knowledge about early childhood development 
and problems that develop early in life and influence later behavior 
can greatly illuminate our understanding of adult criminality.
    If we are to successfully advance our understanding of these 
critical issues, we must be pulling all of this ``knowledge building'' 
together, not be supporting separate and frequently disconnected 
efforts. This becomes even more critical should future OJP budgets, as 
seems likely, not remain at the high levels they are today. It is 
important however, to ensure that juvenile justice issues--and the 
special and different challenges of the juvenile justice system--are 
not lost within the broader agenda of the National Institute of 
Justice. To address that, the plan calls for creation of an Institute 
for Juvenile Justice Research within NIJ to ensure, not only that 
juvenile issues receive focused, priority attention, but also that they 
receive a specific and separate funding allocation. Under the 
restructure plan, the new Institute for Juvenile Justice Research would 
be required to work closely with the Juvenile Justice Office in 
developing the research agenda. Similarly, the Juvenile Justice Office 
would be deeply engaged with BJS in the development of an agenda for 
statistical work. This advances the important goal of ensuring that 
knowledge gained from research informs the development (and funding) of 
programs, and, concomitantly, that practitioner feedback from the 
``front lines'' helps shape research agendas.
    Second, the Department, in making this consolidation 
recommendation, was very cognizant of the need for the independence of 
research and evaluation in order to ensure credibility of resulting 
findings. Nowhere else in OJP, and rarely across the entire Executive 
Branch, does a program office evaluate its own work. The credibility of 
research and evaluation rests, not only on its scientific validity, but 
also on the independence--and the perception of independence--of those 
performing the work. If it appears the evaluations are being undertaken 
by those with a stake in their outcome, credibility obviously is 
diminished. OJP's Drug Court Program Office, for example, does not 
evaluate its own programs. If it did, those results would be less 
persuasive--and viewed as less objective--than if a separate, 
independent agency undertook the evaluation. For all these reasons, the 
OJP reorganization plan assigns to the National Institute of Justice 
all research and evaluation responsibilities across OJP to provide that 
needed ``arms length'' relationship from those conceptualizing and 
running programs.

  <bullet> Victims of Crime: Victim advocates have raised concerns that 
        the reorganization plan can undercut or diminish the important 
        accomplishments--and future work--of the Office for Victims of 
        Crime. The proposed restructure plan reflects the belief that 
        the needs and problems of crime victims must be principal 
        focuses of the activities of every component of the criminal 
        justice system. Accordingly, the development of programs, 
        plans, and strategies to address these needs and problems must 
        be an agency-wide priority for the Office of Justice Programs, 
        something that does not in reality occur today. Too frequently 
        in OJP, victim-related issues are shunted off to OVC; they are 
        not ``owned'' by the other bureaus and offices. This 
        compartmentalization has not benefited the move to ensure broad 
        support for crime victims issues.
    Under the plan, the Victims Office would continue to have 
responsibility for all discretionary grants, technical assistance, 
training, and publications development relating to crime victims. It 
would also have full responsibility for policy, conceptualization, and 
oversight of the victims-related formula grants, with assistance on 
routine grant management from the proposed state desks. In summary, the 
Victims Office would remain the central ``leadership point'' for 
addressing crime victim issues within the Department of Justice.

  <bullet> Violence Against Women: Concerns have also been raised about 
        whether the proposed OJP reorganization would adversely affect 
        the Violence Against Women Office (VAWO). It should be noted 
        that the OJP restructure plan was completed prior to the 
        decision by the Department's leadership to move the Violence 
        Against Women Office into OJP. Prior to March of this year, the 
        Violence Against Women Grants Office was part of OJP, but the 
        broader VAWO, headed by Bonnie Campbell, was housed in the 
        Office of the Associate Attorney General.
    Nonetheless, the purpose and visibility of this issue will not be 
diluted by the proposed OJP restructure because VAWO has a unique 
status within OJP: First, its Director also serves as a Counselor to 
the Attorney General. Second, it works with a National Advisory Council 
on Violence Against Women made up of a high-level group of experts and 
advocates who provide guidance to the office's effort. Third--as an 
indication of the high level of attention to the office within the 
Department--the Associate Attorney General personally chairs, at the 
direction of the Attorney General, a Coordinating Committee on Violence 
Against Women comprised of the heads of all pertinent components in DOJ 
(including the Criminal Division, FBI, INS, the Civil Rights Division, 
and OJP) to focus on these issues and to develop strategic plans for 
advancing work across the litigation, prosecution, and programmatic 
components of the Department.
    In addition, under the plan, VAWO would continue to have full 
responsibility for all violence against women discretionary grants, 
technical assistance, training, and publications development, and would 
continue to be responsible for policy, conceptualization, and oversight 
of the formula grant STOP Violence Against Women program, with 
assistance on routine grant management from the proposed state desks.
    In summary, the leadership of both the Department and OJP remain 
fully supportive of--and strongly committed to--the vision embodied in 
the historic Violence Against Women Act.

  <bullet> PAS Issue: Finally, concern has been expressed concern about 
        the appointment level proposed for office directors under the 
        plan. Right now, OJP has six presidentially-appointed, Senate 
        confirmed (PAS) positions within a small agency, virtually 
        unique across the Executive Branch. The report calls for the 
        bureau head positions to remain political appointees, but not 
        confirmed by the Senate. This was not intended to diminish the 
        importance of these areas, but to reflect the organizational 
        structure of other components within the Department of Justice 
        and the federal government as a whole. It further reflects an 
        effort to address what has too frequently in OJP's history been 
        a situation where individual ``fiefdoms'' operated 
        independently, were uncoordinated and duplicative, and 
        frequently competitive--or even in ``open warfare'' with one 
        another. The need for effective responses to public safety 
        problems facing this country today is too serious to be 
        hindered by bureaucratic competition, and even ``wars,'' among 
        federal agencies. To continue with a structure that 
        compartmentalizes important work in frequently isolated 
        components does not further this nation's collective vision of 
        what is needed for the future of America's youth and the safety 
        of America's communities.

                               CONCLUSION

    The organizing principle at the heart of this plan is to move OJP, 
as the Congress directed, from a confusing, complex, decentralized 
administrative structure to a more cohesive centralized administrative 
structure comprised of coherent components with distinct functions and 
competencies that share a common mission.
    In conclusion, Mr. Chairman, the reorganization plan submitted to 
the Congress recommends creation of an OJP structure that would 
centralize administrative authority to a greater degree, streamline an 
agency that has grown from managing $800 million in 1993 to nearly $4 
billion today with 55 funding streams, and integrate many currently 
overlapping agency functions. Our plan is focused on the more effective 
management of our current programs and funding streams. We are not 
seeking to change the essence of those underlying statutes.
    We are the size of many Fortune 200 companies. We need to apply the 
rules of good management and good government to steer this organization 
and to ensure that our resources are used to their best advantage, in 
the most effective manner possible.
    However, the goals of the proposal are not simply about efficiency. 
The proposal sets forth a vision for what the federal criminal and 
juvenile justice assistance program should look like and how it should 
operate. We seek to ensure fully integrated program development, with 
research and knowledge driving decisions about policy and programs. 
This plan's objectives are also to improve responsiveness to the field, 
to focus resources more effectively, and to eliminate confusion, 
duplication, and overlap in programmatic activities. The Justice 
Department strongly believes this restructure proposal would result in 
better service to OJP constituents at the state and local levels by 
reducing red tape, by making information on all available grant funds, 
technical assistance, and training more accessible, and by streamlining 
grant management processes to help ensure existing funding streams 
reach state and local jurisdictions more expeditiously.
    Further, we strongly believe that this restructure proposal would 
provide for better stewardship of our considerable resources and 
provide for a better means of accountability to the Congress and the 
American people.
    While there have been some concerns, as noted earlier, about 
individual recommendations of the OJP reorganization proposal, 
virtually every official interviewed in developing the Report to 
Congress emphasized the need to improve coordination and collaboration 
and eliminate duplication and overlap among OJP bureaus and offices, 
and to eliminate what one interest group representative called ``silly 
distinctions'' in the alignment of program-related responsibilities.
    As you may know, Mr. Chairman, the Justice Department is continuing 
to meet with concerned constituent groups and individuals to farther 
discuss the reorganization plan and its impact on funding and other 
assistance to the field. Every detail of our proposal is not ``cast in 
stone;'' clearly we are at the beginning of this process. But as 
changes are being considered by Congress, I think the gravest mistake 
would be to sidestep the need for change altogether.
    I appreciate your personal interest in and support for OJP, Mr. 
Chairman, and the support of the other Members of this Subcommittee. I 
look forward to continuing to work with you to ensure we are meeting 
the needs of state and local criminal and juvenile justice 
practitioners, and I would be happy now to respond to any questions you 
or the Subcommittee Members may have.

    [The subcommittee stood in recess from 2:45 p.m. to 3:04 
p.m.]
    Senator Sessions. Sorry to be interrupted. It has been one 
of those weeks, a lot going on, and I guess it will continue 
that way until we get out of here this October or November.
    This panel will have some individuals with particular 
expertise on it who will share their insights about this 
reorganization. It is our Government; it is appropriate that 
things not be done until people have had a chance to digest it, 
all interest groups. Sometimes, that slows us down and makes us 
feel inefficient, but I think that is what democracy is all 
about.
    Mr. Alfred Blumstein is a Johnson Professor of Urban 
Systems and Operations Research at the Heinz School of Public 
Policy and Management of Carnegie Mellon University. His 
degrees from Cornell University include a bachelor's in 
engineering and physics, and a Ph.D. in operations research. 
His public service dates back to the Johnson administration 
when he served as a member of the President's Commission on Law 
Enforcement and Administration of Justice.
    Professor Blumstein has researched many aspects of criminal 
justice policy. He has researched crime measurement, criminal 
careers, sentencing, deterrence and incapacitation, prison 
populations, demographic trends, juvenile violence, and drug 
enforcement policy. And that is quite a number and there are 
some critical issues within those. He has served as both a 
member and leader of many professional organizations. Most 
notably for the purposes of this hearing, Professor Blumstein 
served as chair of the committee to design the structure of a 
justice research and statistics program in the Department of 
Justice, part of the group that produced the report we are 
receiving today.
    Mr. Gene Voegtlin is legislative counsel for the 
International Association of Chiefs of Police. He is a graduate 
of the Catholic University of America and holds a master's in 
legislative affairs from George Washington University, as well 
as a law degree from Georgetown University Law Center. Mr. 
Voegtlin directs the implementation of the IACP's legislative 
and governmental agenda.
    Donna Edwards is executive director of the National Network 
to End Domestic Violence, a national membership organization of 
State and domestic violence coalitions representing more than 
2,000 local domestic violence programs across the Nation, and 
is the author of several journal articles on the subject.
    Besides her work on domestic violence issues, Ms. Edwards 
has worked with Public Citizen on campaign finance issues. 
Before changing careers to public interest law, she was a 
project engineer on space shuttle programs at NASA for Lockheed 
Corporation. That is wonderful. Ms. Edwards is a graduate of 
Wake Forest University and earned her J.D. at the Franklin 
Pierce Law Center in New Hampshire.
    So we are delighted to have this panel. I would note that 
the hurricane has prevented Prof. Jimmy Gurule from joining us 
this afternoon. His written testimony will be made a part of 
the record, and I look forward to receiving and reviewing that.
    [The prepared statement of Mr. Gurule follows:]

         Prepared Statement of Jimmy Gurule, Professor of Law, 
                         Notre Dame Law School

    Mr. Chairman and Members of the Subcommittee: I would like to thank 
you for the opportunity to testify on the proposal under consideration 
for the reorganization of the Office of Justice Programs (``OJP''), an 
office that I had the honor and privilege of supervising from 1990-1992 
as Assistant Attorney General (``AAG'') in the Bush Administration.
    While I do not agree with every aspect of the OJP proposal, the 
plan has much merit and represents a substantial improvement over the 
current organizational structure. If implemented, the effectiveness and 
accountability of OJP programs, as well as the overall administrative 
management and efficiency of OJP would be greatly enhanced. 
Furthermore, the OJP plan would result in increased coordination and 
reduced duplication and overlap of agency functions by consolidating 
similar and related responsibilities within specific OJP bureaus. 
Historically, coordination at OJP in program development and research 
efforts has been rare. In short, at OJP coordination has been the 
exception, rather than the rule. Moreover, this lack of inter-bureau 
coordination, communication and cooperation has hampered the 
effectiveness of OJP programs. The OJP restructuring plan attempts to 
remedy this serious problem.
    At the same time, while I applaud my successor, Assistant Attorney 
General Laurie Robinson, for her leadership in developing the OJP 
reorganization plan, and commitment to good government and efficient 
management reflected in the plan, I am not convinced that eliminating 
the Office for Victims of Crime as a separate office within OJP is 
justified.
    The OJP plan has several major reorganization elements, which would 
significantly effect how OJP conducts its affairs. However, these 
proposed organizational and operational changes have not been without 
their critics. Three aspects of the proposal, in particular, appear to 
have generated the most controversy. They include:

  (1) eliminating the presidential appointee status (``PAS'') of the 
    directors of the five OJP bureaus and offices;

  (2) consolidating the research, evaluation, and statistical programs 
    currently conducted by the Office of Juvenile Justice and 
    Delinquency Prevention (``OJJDP'') within the National Institute of 
    Justice (``NIJ'') and Bureau of Justice Statistics (``BJS''); and

  (3) eliminating the Office for Victims of Crime (``OVC'').

I limit my remarks to these three aspects of the OJP reorganization 
plan.

    First, eliminating the presidential appointee status of the 
directors of the OJP bureaus, and vesting the overall authority for the 
management and administration of OJP programs and activities in the OJP 
Assistant Attorney General is simply good government. Over the past 
several years, including during my tenure as Assistant Attorney 
General, the current organizational structure has impeded the important 
work of OJP. With a budget of nearly $4 billion in federally 
appropriated dollars, OJP can make a significant impact on important 
issues related to violent crime, youth gang violence, and graduated 
sanctions for youthful and young adult offenders, as well as develop 
successful gang and drug prevention programs. However, this requires 
that research and evaluation programs, and statistical studies by OJP 
advise and inform public policy decision-making. For example, crime 
trends identified by BJS should guide BJA priorities for funding 
demonstration programs. Likewise, the results of evaluations (what 
works and what doesn't) and research programs conducted by NIJ should 
advise BJA and OJJDP program development. In other words, the 
activities of the OJP offices should complement one another, rather 
than co-exist in isolation. Of course, this requires communication and 
coordination across the OJP bureaus and offices. Unfortunately, The 
current organizational scheme discourages efforts towards coordination 
by authorizing six presidential appointees of equal status to 
administer OJP. Because of the equal status afforded each bureau head, 
everyone, and therefore no one, is in charge of OJP. In effect, 
coordinating efforts to establish priorities for program funding 
remains discretionary with each Bureau director.
    This lack of coordination became immediately apparent upon assuming 
my position as Assistant Attorney General. One of my first tasks was to 
establish a comprehensive, coordinated annual program plan for OJP 
bureau-wide funding. Prior to my assuming office, each Bureau had 
published a separate annual program plan. Needless to say, there was 
little, if any, coordination between the OJP bureaus in developing 
these earlier annual plans. The idea of establishing OJP-wide 
priorities and publishing a comprehensive program plan was initially 
greeted with strong resistance. While a single, comprehensive annual 
program plan was finally published, it was only after the expenditure 
of countless hours attempting to convince the bureau directors and 
others of the value of a coordinated plan of action based on 
established priorities.
    On the rare occasion when the OJP agencies have agreed to work 
together, the results have been impressive. ``Operation Weed and Seed'' 
is an excellent example of what can be accomplished when the OJP 
bureaus set aside their turf disputes and coordinate and concentrate 
resources. ``Operation Weed and Seed'' was launched by the Department 
of Justice in 1991. As Assistant Attorney General at the time, I was 
one of the principal architects of the program, ``Operation Weed and 
Seed'' is founded on the principle that reducing violent gang-related 
crime requires a comprehensive plan, involving the coordinated efforts 
of the OJP bureaus, Federal and State law enforcement, as well as 
community-based organizations, targeted at high crime areas plagued by 
serious gang-related crime. A recent national evaluation of the ``Weed 
and Seed'' program conducted by NIJ reveals significant reductions in 
crime in a substantial majority of the early weed and seed sites. In 
short, coordination and concentration of OJP resources is an effective 
strategy to combat gang-related violent crime.
    A second controversial aspect of the OJP reorganization plan 
involves the consolidation of OJJDP research, evaluation and 
statistical programs within NIJ and BJS. While members of the juvenile 
justice community have advanced several arguments against the current 
proposal, none are particularly compelling reasons for maintaining the 
status quo, It is alleged that consolidating OJJDP's ``core functions'' 
within NIJ and BJS will have a devastating effect on the juvenile 
justice field. This is mere hyperbole and simply not true. In fact, as 
a practical matter, it makes better sense to have NIJ evaluate OJJDP 
demonstration programs, rather than have OJJDP evaluate itself. Having 
OJJDP administer the evaluations of its own programs raises an 
appearance of impropriety, suggesting a possible absence of 
impartiality. On the other hand, the integrity of the evaluation 
process is enhanced by having an agency other than OJJDP evaluate the 
juvenile justice program. Furthermore, rigorous program evaluations are 
essential to determining whether a particular demonstration program has 
been successful and therefore justifies continued funding. More 
evaluation testing of programs is needed to ensure accountability and 
responsible expenditure of the federal taxpayers' dollars. On this 
point, the OJP proposal to transfer OJJDP evaluation functions to NIJ 
represents an important step in the right direction.
    Consolidating juvenile justice research and statistics in NIJ and 
BJS is further justified by the fact that both offices have established 
and attractive track records in their respective fields. NIJ and BJS 
are certainly up to the task and capable of handling these additional 
responsibilities. Additionally, no good reason exists for maintaining 
two statistical research offices within an agency the size of OJP.
    The critics of the OJP plan further maintain that consolidating 
juvenile justice research and statistical programs in NIJ and BJS would 
somehow impede the current system of ``one stop shopping'' where 
primary consumers of OJJDP's work have a single source of information 
for all juvenile justice matters. To the extent that this poses a 
problem, it is easily remedied. Under the OJP proposal, OJJDP would 
remain the primary contact point for persons seeking information on 
juvenile justice matters. If the information requested was located 
within either NIJ's Institute of Juvenile Justice Research (``IJJR'') 
or BJS, the OJJDP staff person handling the request could forward it to 
the appropriate person in either NIJ or BJS, or personally retrieve the 
requested information and forward it to the practitioner. Thus, any 
inconvenience to the person requesting the information would be minimal 
and certainly outweighed by the benefits afforded under the OJP plan.
    It is further asserted that transferring OJJDP functions to NIJ and 
BJS would have deleterious effects on juvenile justice research and 
demonstration programs by ``blurring the line'' between the juvenile 
justice and criminal justice systems. While there is some truth to the 
statement that the juvenile justice and criminal justice systems are 
different, and those differences should properly be preserved (e.g., 
separation of juvenile offenders from adult offenders, the juvenile 
justices system deals with youngsters not only as offenders but also as 
victim of abuse and neglect), it simply does not follow that 
transferring juvenile justice research to the newly created Institute 
for Juvenile Justice Research (``IJJR'') would make the research less 
relevant to the juvenile justice community. There is no good reason to 
believe that OJJDP and IJJR, both offices being committed to improving 
the juvenile justice system, would not work closely and effectively 
together.
    The real criticism voiced by members of the juvenile justice 
community is that the OJP proposal reduces the prominence and autonomy 
of the OJJDP by having its Administrator appointed by the Attorney 
General, rather than appointed by the President and confirmed by the 
Senate, and vests in the Assistant Attorney General overall authority 
for the management and administration of OJP programs, including OJJDP. 
In essence, the OJP plan offers a clear choice between the current 
system where the OJJDP Administrator is answerable to the President, 
and the reorganization plan where the Administrator is answerable to 
the Attorney General through the Assistant Attorney General. For 
reasons of administrative efficiency, accountability, and program 
effectiveness already discussed herein, good government prefers the OJP 
plan.
    Finally, the OJP reorganization plan proposes the elimination of 
the Office for Victims of Crime (``OVC''). In its place, the plan would 
create a Crime Victims Section within the newly created Office of 
Criminal Justice Programs Development. While OVC would be reduced from 
an OJP bureau to a section, it is unclear whether the size of the OVC 
staff would be significantly reduced as well. The wisdom of diminishing 
OVC in this manner is highly questionable.
    The rights of crime victims is an important issue often overlooked 
by the criminal justice system. As Assistant Attorney General, I made 
implementing policies and programs to improve services to crime victims 
an OJP priority. The 1991 OJP Program Plan targeted victims of Federal 
crimes, particularly on Indian reservations, and child victims of 
pornography, prostitution and sexual exploitation as well as other 
aspects of crime victimization. Once again, in 1992 the OJP Program 
Plan made crime victims a funding priority with specific focus placed 
on minority victims of crime to assure that the services are made 
accessible to them at the Federal, State, and local levels. For 
example, NIJ conducted important research on the underutilization of 
victim services in minority communities. In addition, emphasis was 
placed on ensuring that innocent crime victims are not revictimized by 
the criminal justice system by committing resources to train law 
enforcement officers, prosecutors and other criminal justice personnel 
who work with innocent victims of crime.
    Services for crime victims remains an issue of paramount 
importance. Crime victims need an advocate for their cause. Created by 
the Victims of Crime Act of 1994, OVC has effectively served the role 
of the nation's crime victims advocate. To that end, OVC has done an 
outstanding job in--

  (1) Monitoring compliance with the Attorney General's Guidelines for 
    the Fair Treatment of Crime Victims and Witnesses;

  (2) Consultation with heads of Federal law enforcement agencies 
    regarding Federal crime victims; and

  (3) Coordination of crime victim services among Federal and other 
    public and non-profit agencies.

    Under the proposed reorganization plan, it remains unclear how 
these important responsibilities will be handled. Fearful that the 
emphasis placed on the rights of crime victims would be diminished 
under the OJP proposal, I cannot embrace that element of the plan.

    Senator Sessions. Also, Mr. Mark Soler, president of the 
Youth Law Center, has submitted written testimony for today's 
hearing. If there is no objection, that will be made part of 
the record.
    [The prepared statement of Mr. Soler follows:]

                    Prepared Statement of Mark Soler

    Mr. Chairman and Members of the Subcommittee: My name is Mark Soler 
and I am the president of the Youth Law Center, a national public 
interest law firm with offices in San Francisco and Washington, DC. For 
more than twenty years my colleagues and I have worked on juvenile 
justice reform issues with judges and other juvenile court personnel, 
juvenile detention and corrections administrators, police and other law 
enforcement, state and federal legislators, other public officials, 
parents and community groups, and other advocates for children in 
virtually every state in the nation. Our initial funding, in 1978, was 
from the Office of Juvenile Justice and Delinquency Prevention, and we 
have worked with the juvenile justice office regularly over the years, 
as well as with the Office of Justice Programs and the Bureau of 
Justice Assistance.
    Since the Office of Justice Programs reorganization plan was 
released in April, I have discussed it with researchers and academics, 
juvenile detention and corrections officials (including heads of 
several state agencies), service providers, mental health and child 
welfare professionals, and children's advocates around the country. My 
statement is based on those discussions as well as my own review of the 
plan.
    I believe that the plan contains many worthwhile ideas for 
streamlining operations under the Office of Justice Programs as they 
pertain to the adult criminal justice system. The Assistant Attorney 
General at OJP and her staff have made a concerted effort to look 
closely at issues of coordination of programs, duplication of effort, 
and information dissemination among the OJP agencies, and to suggest 
effective remedies,
    With respect to the juvenile justice system, however, the 
reorganization plan raises several serious concerns. First, it 
transfers most of OJJDP's core functions--research, statistics, 
publications, distribution of formula and block grants, monitoring and 
evaluation--over to other new and existing agencies. It does this in 
the name of efficiency, but it is a curious kind of efficiency that it 
proposes. While these core functions now reside in a single agency 
which is able to manage them in a coordinated way, the reorganization 
plan would fragment OJJDP and distribute the functions to several new 
agencies, which would then be required to liaison back to OJJDP in 
order to achieve coordination of juvenile justice efforts.
    Second, the plan removes control from OJJDP of nearly 75 percent of 
its current budget. Although the written plan often refers to a central 
role for OJJDP in developing national policy, in reality it strips the 
agency of most of its resources. In this city perhaps more than any 
other in the world, authority and influence generally depend on control 
of the purse, and the plan all but empties OJJDPs purse.
    Third, in part as a result of the first two problems, the plan 
sends a message to the field, and to the country, that juvenile justice 
concerns no longer occupy as high a priority as they have in the past. 
Fragmenting the functions and drastically reducing the budget are clear 
indicators that the federal government no longer cares as much about 
studying, preventing, treating, and correcting juvenile crime. Indeed, 
by aligning OJJDP's core functions with those of the adult criminal 
justice system, the plan pushes the two systems together and 
substantially blurs the distinction between them.
    For these reasons, there is significant opposition to the plan 
across the juvenile justice field. As but one indication of this, I 
have attached to my statement a letter sent last month to Attorney 
General Reno, stating these concerns and signed by the leaders of more 
than two dozen national, state, and local organizations, including the 
national juvenile court judges association, mental health 
professionals, services providers, the faith community, and children's 
advocates.
    Although many in the field have spoken about the proposal to have 
the OJJDP Administrator appointed by the Attorney General rather than 
the President, upon reflection I personally am less concerned with that 
change, if OJJDP retains its core functions and control of its budget. 
I don't believe that the OJJDP Administrator (or the heads of the other 
agencies under OJP, for that matter) have to be appointed by the 
President and confirmed by the Senate, as long that person truly 
retains authority to guide the nation's juvenile justice efforts. On 
the other hand, transferring the core functions, cutting the budget by 
three-fourths, and downgrading the appointment of the Administrator 
would have a devastating effect on the juvenile justice field.
    Indeed, there may well be room for improvement in coordinating the 
activities of NIJ, BJA, OJJDP, and the other agencies under OJP. Every 
federal agency, indeed every agency of government, has room for 
improvement. OJP is right to want to improve coordination, eliminate 
duplication, and promote efficiency in the federal government's 
response to crime. But that does not justify virtually dismembering 
OJJDP. There are less drastic, less radical means of accomplishing 
worthwhile goals. For example, in the research area OJP could establish 
small coordination committees made up of one or two representatives 
from OJJDP, NIJ, and OR itself to monitor research proposals, assign 
them to the appropriate agency, and insure that there is no duplication 
of effort. That would accomplish the same goals without completely 
fragmenting OJJDP.
    We should remember that there are two great strengths of OJJDP, one 
from the outside, the other on the inside. From the outside, public 
officials, citizen groups, and others seeking information from all over 
the country can contact one agency, OJJDP, and get access to virtually 
the whole panoply of activities of the federal government's juvenile 
justice efforts, as well as other research, interventions, and 
initiatives going on in the states, The OJP plans calls for ``one-stop 
shopping,'' but one--stop shopping already exists at OJJDP. It's not 
perfect, it's not always a speedy and seamless system, but it works 
pretty darn well and it makes enormous resources available to our 
public officials and our communities. The irony is the OJP plan would 
actually bust up the one-stop shopping that currently exists.
    The second great strength of OJJDP is on the inside: the presence 
of all the core functions in one agency allows a rational, coordinated, 
and effective cycle of activity. The cycle begins with research and 
proceeds to program development, testing, demonstration, and--if a 
program is evaluated and found to be successful--either replication 
nationally or dissemination through technical assistance, training, or 
both. At all of these steps, information resources are made available 
to the field through publications or electronic media. Again, it's not 
perfect, but having all the A-to-Z core functions in one agency allows 
coordination across disciplines, so that the whole can truly be greater 
than the sum of its parts.
    One example of this kind of coordinated vision is the Guide for 
Implementing the Comprehensive Strategy for Serious, Violent, and 
Chronic Juvenile Offenders, published by OJJDP in 1995. Here is an 
effective marriage of research, statistics, program development, 
program evaluation, prevention, treatment and rehabilitation, graduated 
sanctions, secure corrections, and references to the leading 
publications in the field. It is an enormously useful resource. I have 
copied sections and chapters of the book hundreds of times over the 
past four years, for public officials, agency administrators and staff, 
legislators, reporters, and citizen groups, I even use it in the course 
I teach on Juvenile Law at the law school at American University. This 
kind of publication would not happen if the OJP plan went through, 
because the core functions that support the various sections of the 
book would be dispersed into other agencies.
    The analogy I would draw is if the federal government had a single 
agency responsible for the prevention and treatment of cancer. It might 
be called the National Office for Cancer Prevention and Treatment. But 
research money would not be controlled by the National Office, but 
instead by a different agency. And statistics on the incidence of 
cancer and use of different treatments and the results of such 
treatments would be in still a different agency. And the federal 
government would give out millions of dollars to the states for cancer 
prevention efforts, but that money would be given out, and the impact 
monitored, by still a different agency. And new medications and 
treatments would be evaluated by still a different agency. Does anyone 
think that would be an effective way to fight cancer?
    Finally, I want to point out that the national crime victimization 
study reported recently that crime dropped again in the past year, by 7 
percent, continuing the reduction in crime that began in 1994. That is 
a remarkable record, one which can give all of us hope that we are on 
the right track. In view of that record, is this the time to dismantle 
the federal juvenile justice agency?

    Senator Sessions. Mr. Gurule's comments which have been 
received are in general support of reorganization and of the 
plan that has been outlined.
    Professor Blumstein, we are delighted to have you and would 
be honored to have your comments at this time.

PANEL CONSISTING OF ALFRED BLUMSTEIN, PROFESSOR, JOHN HEINZ III 
    SCHOOL OF PUBLIC POLICY AND MANAGEMENT, CARNEGIE MELLON 
   UNIVERSITY, PITTSBURGH, PA; GENE R. VOEGTLIN, LEGISLATIVE 
    COUNSEL, INTERNATIONAL ASSOCIATION OF CHIEFS OF POLICE, 
   ALEXANDRIA, VA; AND DONNA F. EDWARDS, EXECUTIVE DIRECTOR, 
   NATIONAL NETWORK TO END DOMESTIC VIOLENCE, WASHINGTON, DC

                 STATEMENT OF ALFRED BLUMSTEIN

    Mr. Blumstein. Thank you very much, Senator. I am honored 
to be here and pleased to have the opportunity, and so thank 
you for that. And I think US Air for getting me in here this 
morning from Pittsburgh so that I could be with you today.
    Senator Sessions. Well, as Senator Trent Lott said--and I 
am from nearby Mobile and we have had some real hurricanes--we 
respect them, but this one didn't look like it was close enough 
to keep us from working today. I feel confident we will all be 
getting home, but I know you had difficulties and I thank you 
for taking the extra effort to be here.
    Mr. Blumstein. I am pleased to do it.
    I come to you with my 30 years of background and research 
on crime and criminal justice from a variety of perspectives, 
and also as a consumer of the research. Dick Thornburgh, when 
he became Governor of Pennsylvania, asked me to chair the 
Pennsylvania Commission on Crime and Delinquency, which was the 
group in Pennsylvania that did criminal justice planning and 
that managed the Federal grant programs there. So I view issues 
from both sides of that house.
    I particularly want to focus on the issue of the report of 
this committee that I chaired, a committee that was convened by 
Jeremy Travis and by Laurie Robinson to try to figure out how 
best to bring research into a more effective means of 
developing knowledge. I was very pleased at your reference to 
Senator Thompson's comments earlier today because that 
highlights the fact that research is an inherently public good. 
It is the sort of thing that the Federal Government must do 
because it is not going to be done at a decentralized level.
    We have made lots of progress in understanding crime and 
the factors that contribute to it, and I am pleased that this 
National Consortium on Violence Research that I lead has been a 
participant in that. But our level of ignorance is just 
enormous and it is very tough to bring enough knowledge to bear 
to improve the practices, and I think the theme in the Senate 
of making sure that we build our knowledge capability is 
absolutely critical.
    As one looks at the history of the research program within 
the structure that was initially LEAA, the history has been one 
that recognizes that we are currently in a golden age of 
management, with really excellent individuals managing research 
and statistics and an excellent individual managing the Office 
of Justice Programs, and we are seeing real coherence and 
integrity in that process.
    I think it is fair to say that that has not always been the 
case, and the failure in that is by no means a partisan 
statement. I think whichever party had been in control of the 
Justice Department, there had always been various kinds of 
pressure to make the research results or the statistics conform 
to what was politically acceptable and appropriate either in 
the micro or the macro.
    Therefore, a major theme in the committee I chaired was the 
essential need that the research function be independent, and 
in order to do that having credibility and integrity and 
independence was a necessary condition for making that happen. 
I think the need for that is inherent in an issue that is so 
inherently political as the issues of crime and criminal 
justice. And I think the recognition of that was made very 
clear in the distinctions made in the Robinson report between 
the two very different functions, one of giving out grants, 
supporting local activities, providing technical assistance to 
professionals. She has brought those together in an appropriate 
way to create some order out of the currently chaotic 
situation.
    Research and statistics has to generate knowledge that is 
not intended to generate political goodwill, but is intended to 
generate improved knowledge, improved understanding, and more 
effective operation of the criminal justice system, as well as 
the other elements in the society that deal with juvenile 
delinquency, that deal with crime prevention, and that deal 
with the problem of crime.
    There are three issues I want to address. First is some 
brief overall comments about the Robinson report, particularly 
from the perspective of research and statistics, and two 
aspects of it. One is the issue of consolidating research 
within NIJ and statistics within BJS, and the second a point of 
difference with the Robinson report, and that is a concern 
about the nature of appointment of the directors of NIJ and 
BJS.
    I think the report is an excellent one, and it does bring 
considerable order out of chaos and provides appropriate 
assessment for the need for the integrity of research and 
statistics by making them report in different ways and giving 
their directors sign-off authority on grants, and particularly 
sign-off authority on publications. And it is the publications 
that provide the knowledge that will improve the operation of 
the system that should not be tainted by a need to address 
partisan interests or political concerns.
    About 20 years ago, I was a member of a committee at the 
National Research Council that was asked to review the program 
of the National Institute of Law Enforcement and Criminal 
Justice, the predecessor agency of NIJ, and we found in that 
exploration that LEAA was making considerable efforts to 
distort the findings of research projects so that they would be 
supportive of the programs that were then the favored programs 
of LEAA. And our recommendation was one of generating a 
separation and independence, and we were all very pleased when 
the Congress also recognized that distortion that diminished 
the value of the research findings, lost its credibility, and 
made it a necessary condition that there be independence and 
strength in that operation. And I think the Robinson report 
displays clear sensitivity on that by its structure.
    Let me turn to the issue of the consolidation of the 
research and statistics programs. There is inherently a natural 
tension between dispersing research among the various 
functional operating agencies and putting it all into one 
agency. And our committee debated these issues and basically 
came to the conclusion that we would be much better served and 
the research and statistics programs would be strengthened if 
they were put together within NIJ for research and BJS for 
statistics. And we are pleased that that recommendation was 
incorporated in the Robinson report.
    Clearly, when they come together, you get much more 
effective coordination and much more effective consolidation. I 
think Laurie Robinson's testimony highlighted the fact that 
there is continuity between juvenile developmental experiences 
and adult criminality, and I think that is just an absolutely 
important issue.
    It is also the case that the criminogenic environment that 
juveniles, as well as adults face doesn't do any carding of the 
individual to decide whether they are juveniles or adults. Drug 
dealers, drug marketers, gun pushers, they don't make 
distinctions between juveniles and adults, and so much of the 
crime is associated with juvenile involvement in the criminal 
justice system and in criminogenic environments.
    There has been a concern raised that there wouldn't be 
enough proximity between the action folks in the program 
agencies and the research, and therefore the research should be 
out there. But I think it is very important to keep that 
research separate and integrated, and keep its integrity. To 
the extent that OJJDP under a future administration is 
responsive to the political wishes of the director of OJP, 
their research program might have the same fate if it were in 
OJJDP. Their research program might have the same fate as the 
one I referred to earlier because they would not have the 
independence and the sign-off authority that the reorganization 
plan puts in NIJ and BJS, and that is an issue of some concern.
    So I think it is important that the consolidation is a much 
more effective means, a much more efficient means of getting 
strong, solid and credible results. And I was certainly pleased 
that the Senate, in 254, put that National Juvenile Justice 
Institute within the National Institute of Justice.
    The one further point I would like to raise is that the 
presidential appointee position of the current directors of NIJ 
and BJS has been one that enhanced their independence, that 
enhanced their stature, and has permitted them to recruit 
individuals like Jeremy Travis and Jan Chaikin. To the extent 
that there were no longer presidential appointments, that would 
diminish the stature; it would diminish their independence.
    And I appreciate that in the Robinson report they want to 
eliminate all of the presidential appointments under the 
director of OJP. But I think these are two special cases, and 
it is represented by the fact that similar positions in other 
Federal departments are also presidential appointments. And my 
concern is that there is a suspicion that the Justice 
Department doesn't care much about research and statistics, and 
demoting these positions would both establish a difference with 
other departments and confirm the suspicion that the Justice 
Department really doesn't want straight numbers.
    So I would urge you to at least keep the two of those, and 
in the Robinson report they recognize an asymmetry between 
these two agencies and the other grant-giving agencies, so that 
one doesn't have to make them all the same with regard to 
presidential appointees.
    Senator Sessions. So you referring there to the Bureau of 
Justice Statistics and the----
    Mr. Blumstein. National Institute of Justice.
    Senator Sessions. National Institute of Justice.
    Mr. Blumstein. BJS being the statistics agency, NIJ being 
the research agency, and they clearly are important. And the 
Robinson reports recognizes----
    Senator Sessions. And you are satisfied that they remain 
separate and not be merged?
    Mr. Blumstein. I think the history throughout the Federal 
Government has been keeping the statistics agencies separate 
from the research agencies, for reasons that the statistics 
agency collects data. Research agencies inevitably have to be 
responsive to what are the critical issues today, whereas the 
statistics programs develop long time series and don't have to 
have even that much responsiveness to contemporary issues 
driven by Congress and the administration.
    Thank you very much, Senator. Sorry I ran over a few 
minutes.
    Senator Sessions. No; that was very worthwhile and we thank 
you.
    [The prepared statement of Mr. Blumstein follows:]

                 Prepared Statement of Alfred Blumstein

    Senator Sessions and Members of the Subcommittee: I am honored by 
the opportunity to appear before you today as you consider the various 
issues involved in the proposed reorganization of Office of Justice 
Programs in the Department of Justice.
    As background information on my own involvement in this issue, I 
have engaged in a variety of criminological research since my 
involvement as Director of Science and Technology for the President's 
Commission on Law Enforcement and Administration of Justice in 1966. I 
have also been involved in practical policy matters as a member of the 
Pennsylvania Sentencing Commission since 1986, and I served as the 
chairman for over eleven years of the Pennsylvania Commission on Crime 
and Delinquency, the state's criminal justice planning agency, which 
manages Federal criminal justice funds in Pennsylvania. Attached to my 
testimony is a short biographical statement for your information.
    My current position is as a University Professor at the H. John 
Heinz III School of Public Policy and Management of Carnegie Mellon 
University. I also serve as the director of the National Consortium on 
Violence Research (NCOVR), a program of research supported by the 
National Science Foundation on issues of violence--with particular 
emphasis on youth violence. If there is any way in which that project 
can be helpful to your Subcommittee, we would be most pleased to do so.
    More directly relevant to the hearings today, at the invitation of 
Jeremy Travis, the Director of NIJ, and Laurie Robinson, the Assistant 
Attorney General in charge of OJP, I chaired a balanced committee of 
distinguished academic researchers that was asked to provide our views 
on the reorganization of the research and statistics functions 
currently within OJP. The members of that committee represented a broad 
diversity of perspectives on the issues involved, and the report 
represented a strong consensus of their views. A copy of the 
committee's report, including a listing of the committee members, is 
attached to my prepared testimony.
    In my discussion today, I would like to focus primarily on three 
issues:

  <bullet> A brief overall appraisal of the Robinson report from the 
        perspective of research and statistics, and two items 
        emphasized in my committee's report:

  <bullet> The importance of consolidating the research and statistics 
        activities in OJP within NIJ and BJS, and

  <bullet> The need to keep the directors of NIJ and BJS as 
        Presidential appointees in order to ensure that they possess 
        the ability, competence, and stature to execute their 
        responsibilities effectively.

        I. OVERALL ASSESSMENT OF THE REORGANIZATION PLAN FOR OJP

    I have read the reorganization plan for the Office of Justice 
Programs proposed by Assistant Attorney General Laurie Robinson. I 
believe that her report is an excellent one, and one that will bring 
considerable order out of the chaos that now prevails with the variety 
of agencies that are intended to provide research and statistical 
knowledge, technical assistance and Federal funding to strengthen state 
and local crime control and criminal justice operations.
    The report recognizes the important distinction between the 
allocation of Federal funds and the provision of technical assistance, 
on one hand, and the generation and presentation of research and 
statistical knowledge, on the other. The former category requires the 
development of favorite programs and an assessment of local needs; 
here, considerations of local need and self-justification of programs 
become an important part of the decision-making by the agencies serving 
a diversity of constituencies, and that is inevitable and not 
inherently inappropriate.
    Those features would poison the integrity and the credibility of 
the research and statistics programs. Those areas must be and must be 
seen to be free of the bias that can often creep into management of a 
politically sensitive program--and we all know that almost any program 
related to crime and criminal justice has strong political 
sensitivities.
    About twenty years ago, I was a member of a committee of the 
National Research Council that was asked to review the program of the 
then-current version of NIJ, which was under the control of LEAA (the 
Law Enforcement Assistance Administration), the grant-giving arm of the 
Justice Department at the time. The NRC committee found that the 
research organization was subjected to unreasonable pressure to justify 
the programs being funded by LEAA rather than providing objective and 
honest evaluations of those programs. In its report, Understanding 
Crime, the NRC committee addressed this incompatibility with a strong 
recommendation that a new National Institute of Justice be created 
independent of the grant-giving agency, and the Congress endorsed that 
recommendation with enthusiasm, and that is the structure that prevails 
today.
    I believe that the Robinson report displays a clear sensitivity to 
those issues. It took special steps to ensure the credibility of the 
research and statistics functions by enhancing the independence of the 
NIJ and BJS directors by giving them--rather than the OJP Director--
final sign-off authority on grants, contracts, and publications. I urge 
this Committee to endorse those recommendations.

 II. CONSOLIDATION OF THE RESEARCH AND STATISTICS PROGRAMS WITHIN NIJ 
                                AND BJS

    Our committee recognized the natural tension between a strategy of 
dispersing the research and statistics activity to the various program 
agencies within OJP and one of consolidating the research within a 
single research institute or statistics agency. After debating these 
issues at length, particularly with regard to matters of research on 
juvenile matters, the committee recommended that:

          The entire [OJP] research program be consolidated within 
        [NIJ], and similarly that the entire [OJP] statistics program 
        be consolidated within [BJS].

We were very pleased that this recommendation was incorporated into the 
Robinson report.

    We were convinced that a consolidated arrangement will assure 
greater coordination in the overall research program and avoid 
redundancy. Consolidation would enhance the quality of the research by 
using the combined expertise of the total research staff and would make 
it possible to recruit a stronger research staff because of the primary 
commitment of the organization to research. More generally, it would be 
able to capitalize on the economies of scale in having a single strong 
research organization.
    Also, since program agencies such as OJJDP must be responsive to 
political concerns, it will diminish the risk that they will try to 
shape the research and statistics to be self-justifying. The 
independence provided for the NIJ and BJS programs will not be 
available to a research program located within a program agency, and so 
there will be greater concern about the quality and integrity of the 
research they produce.
    With respect to research on juvenile offending in particular, 
bringing them together will enhance the ability of researchers to 
address the important continuity of offending between the teen and the 
adult years. Also, juveniles and adults operate in the same 
criminogenic environments, with adult drug dealers and gun pushers 
often targeting juveniles specifically. Similarly, statistics on 
juvenile offending and on the handling of juveniles within the criminal 
justice system will benefit from the economies of scale and of scope 
associated with the consolidation of the research and statistics 
programs. We recognize that there is a strong argument for courts to 
deal with juveniles differently from adults, but there can be no such 
argument for such a partition in structuring a research or statistics 
program targeted at understanding crime and finding effective means of 
prevention and intervention.
    I understand that some of those who have argued against this 
consolidation have claimed that juvenile matters have not been a major 
part of the NIJ program. That, of course, is understandable in the 
presence of an OJJDP research program. Even in the face of that turf 
restraint, NIJ has made major investments from its meager budget on 
juvenile issues. The Project on Human Development in Chicago 
Neighborhoods, for example, recognized the importance of developmental 
experiences on future criminal activity. The juvenile component of the 
ADAM program monitoring drug abuse of arrestees recognized that drug 
traffickers do not card their customers. I am confident that 
introducing a Juvenile Institute into NIJ will make juvenile issues an 
increasingly important part of the NIJ program and reap the efficiency 
and effectiveness benefits of a consolidated program.
    For all these reasons, I was pleased that the logic of the 
consolidation is reflected in the judgement of the Senate, which 
established (in Senate Bill 254) `` * * * within the National Institute 
of Justice [emphasis added] * * * a National Institute for Juvenile 
Crime.

         III. PRESIDENTIAL APPOINTMENT OF NIJ AND BJS DIRECTORS

    The one concern I would raise about the otherwise excellent 
Robinson report is the degree to which the stature of the directors of 
NIJ and BJS would be diminished by removing their status as 
presidential appointees. I am concerned that this will make it more 
difficult to recruit individuals who are as excellent as the ones that 
currently occupy those positions, and thereby diminish the quality of 
their operations. I think that it is important also to recognize that 
people in similar positions in virtually all other government 
departments are presidential appointees, and this downgrading could 
well be seen as reflecting less interest in those functions by the 
Justice Department, thereby seeming to confirm the widespread suspicion 
that these functions are not valued in the Justice Department.
    I appreciate Ms. Robinson's desire to deal symmetrically with all 
of the current Presidential appointees within OJP. On the other hand, 
her report clearly recognized the fundamental differences between the 
research and statistics functions and the other program areas by the 
differences in the sign-off authority and in the appointing authority. 
Thus, it could certainly be reasonable to have those two positions 
retain their status as Presidential appointees, while discontinuing it 
for the others.

                              IV. SUMMARY

    I hope these thoughts are helpful to you and to the Subcommittee on 
Crime in the development of the reorganization plan. I believe that 
adoption of the Robinson report, with particular attention to the 
issues I raised above, and with modification to retain Presidential 
appointment for the NIJ and BJS directors, could make a significant 
improvement in the structure and operation of OJP, and of its research 
and statistics programs in particular.

    Senator Sessions. Mr. Voegtlin.

                 STATEMENT OF GENE R. VOEGTLIN

    Mr. Voegtlin. Thank you, Senator. On behalf of the 
International Association of Chiefs of Police, I am pleased to 
be here today to offer our views on the proposed restructuring 
plan for OJP. IACP's president, Ronald Neubauer, had really 
wanted to be here today to personally express his views on the 
plan, but unfortunately he, along with the rest of our 
leadership right now, is participating in IACP's Asian policing 
conference in Ulan Bator, Mongolia. So they weren't able to get 
here, hurricane or not.
    As you know, the IACP, with more than 18,000 members in 112 
countries, is the world's oldest and largest association of 
police executives. Our mission throughout the history of the 
Association has been to identify, address, and provide 
solutions to urgent law enforcement issues. It is in our effort 
to fulfill this mission that the IACP has had the opportunity 
to work with the Office of Justice Programs on many projects of 
vital importance to law enforcement. Just over the last 10 
years, IACP has entered into a collaborative relationship, 
including grant and cooperative agreements, with every OJP 
component.
    Given our experience and our understanding of the vital 
role that OJP plays in advancing the policing profession, and 
in assisting state and local law enforcement, you can 
understand why IACP was very interested in any proposal to 
restructure the office, and why we are paying close attention 
to this particular plan.
    It is obvious that IACP would be concerned over any plan 
that, in our view, would impair OJP's ability to assist State 
and local law enforcement. However, I am pleased to say that 
that is not the case with this proposal. The IACP executive 
committee, in early August, met in New York City, and our 
committee consists of chief law enforcement executives from 
both large and small agencies at every level of Federal, State 
and local government. This executive committee examined the 
proposed reorganization plan and unanimously voted to endorse 
it.
    The IACP believes that Attorney General Reno and Assistant 
Attorney General Robinson have done a tremendous job in 
crafting a reorganization plan for OJP that will both enhance 
the coordination in the office and reduce confusion and 
unnecessary competition. We applaud their efforts.
    Time and time again, the IACP's experience with the Office 
of Justice Programs has demonstrated the high level of 
professionalism and expertise of its employees and their 
commitment to assisting State and local law enforcement 
agencies. However, at the same time we have seen how the 
duplication of effort and complicated administrative procedures 
have diminished the effectiveness of these same employees and 
limited the capabilities of OJP.
    The IACP believes that the proposed restructuring plan, by 
streamlining current administrative procedures, eliminating the 
duplication of functions, and promoting greater integration and 
the sharing of critical information between programs, will 
assure that OJP is able to fulfill its mission in a more 
efficient and effective manner.
    And while there are many important changes contained in 
this plan, the key to this restructuring program, in the IACP's 
view, is its focus on increasing the accessibility of OJP to 
State and local law enforcement agencies. Over the years, the 
ability of the local police chief to successfully navigate the 
intricacies of OJP's bureaucracy has been diminished because of 
the bewildering array of separate programs and contact persons 
that are in place at each of OJP's components or agencies.
    I can tell you that nothing is more frustrating to a local 
law enforcement executive than knowing that assistance is 
available, yet being unable to procure it because they cannot 
connect with the proper official. This problem is especially 
acute in our Nation's smaller departments, which are often 
those that are most in need of assistance. These smaller 
departments simply do not have the personnel resources to spend 
the time that is currently necessary to decipher what one chief 
described as the inscrutable monolith of OJP.
    As a result, some chiefs in smaller communities feel that 
the larger cities or State agencies have a better chance at 
receiving assistance, simply because they have full-time staff 
employees who have worked with the OJP for years and have 
developed an understanding of the intricacies of the OJP 
bureaucracies. Let me illustrate this point by a plan that we 
all hope will come into full funding in the near future.
    Last year, Congress enacted the Criminal Identification 
Technology Act. Once this Act is funded, it should put in place 
more than $1 billion that will be made available to State and 
local police agencies to modernize their criminal databases and 
improve their ability to communicate with each other.
    However, as the IACP understands this Act, if this program 
were to be administered by OJP in its current structure, these 
funds will be split between, at a minimum, the National 
Institute of Justice, the Bureau of Justice Assistance, and the 
Bureau of Justice Statistics. If a local police agency wanted 
to take advantage of some aspect of this program, it would be 
necessary for them to independently identify and contact the 
appropriate office. Given the past experience of many of our 
chiefs, it is clear that this can be both a daunting and a 
disheartening process.
    However, under the new structure, the same agency would 
have to place just one call to the Office of State and Local 
Information Transfer. This office would be able not only to 
provide information about the specific grant or assistance 
program that the local police chief was interested in, but 
would also have the ability to provide information on related 
training opportunities and the availability of other technical 
assistance.
    This central contact is, in the opinion of the IACP, the 
critical component of this entire plan. By providing State and 
local police agencies with information about available 
assistance and training programs in a timely and, more 
importantly, understandable fashion, the proposed restructuring 
plan will allow these agencies to better serve the public they 
are sworn to protect.
    Just one final thought as I conclude. Although the IACP 
strongly supports this plan and believes that it will establish 
an essential and practical framework for making the resources 
of OJP more accessible to State and local law enforcement, 
there is no guarantee that this new structure will be 
immediately successful.
    Therefore, if this or any version of a restructuring plan 
is adopted, the IACP recommends that immediate and consistent 
evaluation of the new framework be performed in order to ensure 
that it is meeting its goal of streamlining the OJP's process 
and improving its ability to assist State and local law 
enforcement agencies.
    This concludes my statement and I will be happy to answer 
any questions you may have.
    Senator Sessions. Thank you very much.
    [The prepared statement of Mr. Voegtlin follows:]

                 Prepared Statement of Gene R. Voegtlin

    Good Afternoon, Mr. Chairman and Members of the Subcommittee: On 
behalf of the International Association of Chiefs of Police, I am 
pleased to be here to share our views on the proposed restructuring of 
the Office of Justice Programs (OJP).
    As you know, the IACP, with more than 18,000 members in 112 
countries, is the world's oldest and largest association of police 
executives. IACP's mission, throughout the history of our association, 
has been to identify, address and provide solutions to urgent law 
enforcement issues.
    In our efforts to fulfill this mission, the IACP has had the 
opportunity to work closely with the Office of Justice Programs on many 
projects that are of vital importance to the law enforcement community. 
Over the past decade, IACP has entered in collaborative relationships, 
including grant and cooperative agreement with every OJP component, 
BJS, BJA, OVC, OJJDP, VAWO and NIJ.
    Given the IACP's experience and understanding of the role that the 
Office of Justice Programs plays in advancing the policing profession 
and in assisting state and local law enforcement agencies, it is easy 
to understand why the IACP would pay close attention to any proposed 
restructuring of the Office of Justice Programs. Obviously, the IACP 
would be very concerned with any proposal that, in our opinion, would 
impair the ability of the Office of Justice Programs to serve the 
interests of law enforcement. However, that is not the case here and I 
am pleased to inform. you that the IACP Executive Committee, whose 
membership consists of law enforcement executives from both large and 
small agencies at every level of government, has examined the proposed 
reorganization plan and unanimously voted to endorse it.
    The IACP believes that Attorney General Reno and Assistant Attorney 
General Robinson have done a tremendous job in crafting a 
reorganization plan for the Office of Justice Programs that will 
enhance coordination and reduce confusion and unnecessary competition, 
We applaud their efforts.
    Time and time again, the IACP's experience with the Office of 
Justice Programs has demonstrated the high level of professionalism and 
expertise of its employees and their commitment to assisting state and 
local law enforcement agencies. However, at the same time, we have seen 
how the duplication of effort and complicated administrative procedures 
have diminished the effectiveness of these employees and limited the 
capabilities of the Office of Justice Programs. That is not to say 
however, that the OJP and its employees are not accomplishing their 
mission, only that their current structure is preventing them from 
operating at their full potential.
    The IACP believes that the proposed restructuring plan, by 
streamlining current administrative procedures, eliminating the 
duplication of functions and promoting greater integration and the 
sharing of critical information between programs, will ensure that the 
Office of Justice Programs is able to fulfill its mission in a more 
efficient and effective manner.
    For example, by keeping the National Institute of Justice and the 
Bureau of Justice Statistics separate from OJP's grant operations, this 
plan ensures that there will continue to be independent and aggressive 
research of programs in the field and also ensures the availability of 
independent statistical collection. In addition, the creation of an 
Office of Criminal Justice Program Development ensures that OJP will be 
able to provide a coordinated and consistent response to agencies in 
the field. This will be a welcome change from the current duplicative 
and often unnecessarily competitive relationships between many of OJP's 
current bureaus and programs offices.
    However, in IACP's view the key to this restructuring proposal is 
its focus on increasing the accessibility of the Office of Justice 
Programs to state and local law enforcement agencies. Over the years, 
the ability of a local police chief to successfully navigate the 
intricacies of the OJP bureaucracy has been diminished because of the 
bewildering array of separate programs and contact persons in place at 
each OJP component or agency.
    Nothing is more frustrating for a local law enforcement executive 
than knowing that assistance is available, yet they are unable to 
procure it because they cannot connect with the proper official. This 
problem is especially acute in smaller departments which are often 
those most in need of assistance. These smaller departments simply do 
not have the personnel resources to spend the time that is currently 
necessary to decipher what one Chief described as the ``inscrutable 
monolith of OJP''.
    As a result, some chiefs from smaller communities feel that the 
larger cities or state agencies have a better chance at receiving 
assistance simply because they have full time staff employees who have 
worked with the OJP for years and have developed an understanding of 
the intricacies of the OJP bureaucracies.
    Let me illustrate my point. Last year, Congress enacted the 
Criminal Identification Technology Act. Once this act is funded more 
than $1 billion will be made available to state and local police 
agencies to modernize their criminal databases and improve their 
ability to communicate with each other. However, as the IACP 
understands the act, if this program were to be administered by OJP in 
its current structure, these funds would be split between the National 
Institute of Justice, the Bureau of Justice Assistance and the Bureau 
of Justice Statistics. If a local police agency wanted to take 
advantage of some aspect of this program, it would be necessary for 
them to independently identify and contact the appropriate office. 
Given the past experience of many chiefs, it is clear that this can be 
a daunting and disheartening process.
    However, under the new structure, the same agency would have to 
place just one call to the Office of State and Local Information 
Transfer. This office would be able to not only provide information 
about the specific grant or assistance program that the local police 
chief was interested in, but would also have the ability to provide 
information on related training opportunities and the availability of 
technical assistance. This central contact point is, in the opinion of 
the IACP, the critical component of this entire restructuring proposal. 
By providing state and local police agencies with information about 
available assistance and training programs in a timely and 
understandable fashion, the proposed restructuring plan will allow 
these agencies to better serve the public they are sworn to protect.
    In conclusion, I would like to offer one final thought. Although 
the IACP supports this plan and believes that it will establish an 
essential and practical framework for making the resources of the 
Office of Justice Programs more accessible to state and local law 
enforcement, there is no guarantee that this new structure will be 
immediately successful. Therefore if this, or any other restructuring 
plan, is adopted, the IACP recommends that immediate and consistent 
evaluation of the new framework be performed in order to ensure that it 
is meeting its goal of streamlining the OJP and improving its ability 
to assist state and local law enforcement agencies.
    This concludes my statement. Thank you for the opportunity to 
appear before you today and I will be happy to answer any questions you 
may have.
                               __________

                 Gene R. Voegtlin, Legislative Counsel

    Gene R. Voegtlin serves as the Legislative Counsel of the 
International Association of Chiefs of Police.
    As the Legislative Counsel, Voegtlin is responsible for directing 
the day-to-day implementation of the IACP's legislative and 
governmental affairs program, meeting with Members of Congress, Capitol 
Hill staff, and various Clinton Administration Officials to advocate 
IACP policy positions, and providing legal analysis on legislative 
proposals, regulatory actions, and federal court filings. In addition, 
the Legislative Counsel provides strategic advice and counsel to IACP 
Executive Board as it formulate, plans and implements the association's 
biannual comprehensive, legislative agenda and strategy.
    Prior to joining IACP, Voegtlin served as the Director of 
Legislative and Political Affairs for the National Federation of 
Federal Employees. His prior experience includes serving as the 
legislative representative of the Federal Managers Association and the 
American Chemical Society.
    Voegtlin received his law degree from the Georgetown University Law 
Center. Additionally, he holds an M.A. in Legislative Affairs from the 
George Washington University and a B.A. from the Catholic University of 
America.

    Senator Sessions. Ms. Edwards.

                 STATEMENT OF DONNA F. EDWARDS

    Ms. Edwards. Thank you, Mr. Chairman. Would it be possible 
to have my entire statement submitted for the record?
    Senator Sessions. We certainly will be glad to receive 
that.
    Ms. Edwards. Thank you.
    Senator Sessions. Thank you.
    Ms. Edwards. Mr. Chairman, on behalf of the National 
Network to End Domestic Violence, I really do thank you for the 
opportunity to comment about the proposed restructuring plan at 
the Office of Justice Programs.
    Let me begin by saying that we have been really grateful 
for the commitment both of this administration and certainly 
those at the Department of Justice and the Congress for the 
support that you have shown for violence against women 
programs, for funding of those programs, and to the tremendous 
amount of work that has gone in over the last 6 years since the 
passage of the Violence Against Women Act in 1994 in support of 
those programs.
    When I had a chance to, over the last several months, both 
digest the proposal and also get it out to many of our member 
programs across the country, we received tremendous response. 
And I think on one level, one could question whether that was a 
response because it is such a detailed administrative kind of 
issue. But I think that the reason that our programs at the 
State and local level responded to the proposal is because we 
have been able to see the change that has been brought about, 
one, with the passage of the Violence Against Women Act in 
1994, but with the plan that the Department of Justice put into 
place to implement the Violence Against Women Act, and that is 
what I would like to talk to you about today.
    I had an opportunity before the testimony today, before the 
hearing today, to speak with programs in Alabama and one of the 
program persons I spoke with is a woman named Kathy Wells, who 
runs the Shelter and Crisis Services of Northern Alabama. They 
run two shelters, Hope House and a legal assistance program, a 
really comprehensive domestic violence program.
    And she has been doing this work in Alabama for about 25 
years, and one thing that she told me was that she has been 
able to see the tremendous change in the 25 years of her work 
on the local level that has been to the benefit of victims in 
her community. And she points very strongly to the role that 
the Violence Against Women Office and the current structure of 
really--and I would use this term--centralized operations that 
both do grant-making and deal with policy issues and technical 
assistance, and provide guidance to the States about 
implementing these critical programs. And she has had a 
tremendous relationship in her State that has been brought 
about precisely because of the structure of the Violence 
Against Women Office here in Washington.
    What she says is this, that before 1994 programming in her 
State was very uncoordinated. No one talked to each other. The 
police were going one direction, prosecutors going another 
direction, domestic violence programs in yet another direction, 
and the judiciary someplace over on the side. And today that is 
not true because the Violence Against Women Office provided 
guidance about the implementation. They stressed, both in their 
work with the States and encouraged work at the State level, 
coordination, collaboration, and communication to really 
enhance resources and implementation in the local community.
    She told me about a program that they run that is called a 
first responder program in the Huntsville area, and Decatur and 
Madison. In that program, they have recruited about 35 
volunteers who have responded to about 340 crisis calls with 
law enforcement officers in that wide area. She said that she 
approached the Violence Against Women Office, along with their 
prosecutor and their local police chiefs in the various 
jurisdictions, about this project. They were just trying to 
figure out how to do it.
    It turns out that the way that the Violence Against Women 
Office helped is that they knew what was going on in other 
jurisdictions around the country. They knew what was working 
and what wasn't working, and they were able to provide the kind 
of guidance that the folks in Huntsville really needed to fully 
implement their first responder program.
    And today all of these sort of various folks--the police 
officers, the prosecutors, and others who are in the 
implementation process in their community around the Violence 
Against Women Office--not only work together, but they share 
space together. And this has been a tremendous difference from 
the way things were 10 years ago or 20 years ago, and in large 
measure that has been brought about because of their very sort 
of centralized approach that the Violence Against Women Office 
has taken toward implementation of what Congress wanted them to 
do.
    And I think that this is very instructive for us; it is a 
local lesson that is very instructive. It is a lesson from what 
the Assistant Attorney General would call the consumer. And 
what we as consumers are saying to the Department is that while 
there may be a sort of 20-year history of the way that these 
programs have been structured through the Office of Justice 
Programs over the years, that indeed what the Violence Against 
Women Act did was create an environment in which the Violence 
Against Women Office actually could do all of those functions 
that we are talking about in this reorganization plan. And they 
do that from an issue perspective and not from a function 
perspective.
    What I see here, in fact, is something that I think we 
wouldn't want consumers to face, and that is at the Crisis 
Services of Northern Alabama, in their area they have got a 
STOP grant, so that is a State formula grant. They also have a 
legal assistance grant, which is a discretionary grant program, 
and they have a program that comes out of the Grants to 
Encourage Arrest Program.
    Even if they called that information central desk to find 
out really what is going on with their discretionary programs 
and with their formula programs and with any technical 
assistance and with any research that might be going on in 
their area, they would still have to make five telephone calls. 
And right now, today, they can call the Violence Against Women 
Office and find out all of those things.
    So at least with respect to the functions that are 
implementing the Violence Against Women Act, I really do not 
see that this plan at all would centralize operations. In fact, 
it would take what is already a very centralized function and 
decentralize that greatly.
    The role of the Violence Against Women Office is not a role 
of simply giving out Federal grants. It is really making sure 
that implementation takes place in a responsible way, so that 
policies are guided by the best practices in the field, so that 
people who are making those grants and overseeing those grants 
have a substantive knowledge of what is going on in the broader 
field of violence against women so that the Federal dollars are 
used in the most efficient way.
    And I do want to conclude by saying that I think that you 
had asked a question earlier about the desire for a 
multidisciplinary approach to so many issues so that we really 
do see the overlap and can deal with issues more holistically 
and serve the American public in a more holistic fashion. And I 
would argue to you that indeed the last 6 years of 
implementation through the Violence Against Women Office is 
doing exactly that.
    And I suggest that if there are some very small functions 
that deal with violence against women in some of the other 
bureaus, as the Assistant Attorney General indicated, those are 
very sort of smaller function areas and they could be brought 
in the house of the Violence Against Women Office and a number 
of areas could be better served by having issue-specific focus 
with all of the grant-making and administrative functions 
within those issues. That would both elevate the issues in the 
way that Congress intends and gets out the message that some of 
these issues do enjoy high Federal priority.
    At the same time, it would ensure that those who are out in 
the field don't spend all of their time making telephone calls 
and figuring out the maze of Federal programs, but really do 
get to spend their time implementing those laws and 
implementing the important grant programs that go along with 
them.
    Thank you very much.
    [The prepared statement of Ms. Edwards follows:]

                 Prepared Statement of Donna F. Edwards

    Mr. Chairman and members of the Subcommittee, on behalf of the 
National Network to End Domestic Violence, thank you for providing the 
opportunity for me to share with you our thoughts about the U.S. 
Department of Justice proposal to reorganize the Office of Justice 
Programs. The National Network is a network of statewide domestic 
violence coalitions around the country--through our members, we 
represent nearly 2,000 domestic violence shelters and programs. Our 
member coalitions and the various justice system components within 
their states, including the state administrators who administer 
violence against women funding, are in the unique position of working 
directly and closely with the existing Violence Against Women 
Office.\1\ Our day-to-day working relationship with the VAWO since its 
inception is a critical lens from which to view the Department's 
proposed reorganization plan.
---------------------------------------------------------------------------
    \1\ During this past spring, the grant making function of the 
Violence Against Women Grants Office and the policy making function of 
the Violence Against Women Office (VAWO) headed by Bonnie Campbell were 
brought together formally though they had functioned in harmony since 
the initial establishment of those functions in 1994. The NNEDV support 
strongly the natural merger of these two functions. For clarity, I 
refer to the grantmaking and policy making functions together as VAWO.
---------------------------------------------------------------------------
    Let me begin by saying that we are grateful for the commitment of 
this Administration and this President to ending domestic violence and 
all violence against women. The Administration, and particularly the 
Department of Justice, has been incredible in their work implementing 
the numerous programs, policy changes, and system advancements that are 
the vision of the Violence Against Women Act of 1994. Moreover, the 
decisive leadership of Congress has given much needed support for the 
efforts of local communities and states to end violence against women. 
Congress has provided states with critical funds and policy direction 
through the state formula grants and discretionary programs such as the 
pro arrest grants, rural, tribal, civil legal assistance, research and 
training and technical assistance programs that collectively comprise 
the VAWA 1994. In the field, and throughout the states, we know that 
Congress--Republicans and Democrats--are committed to funding these 
important VAWA programs. The challenge, of course, is not just in 
making the resources available, but in ensuring that implementation is 
coordinated, thoughtful, and informed by work and practice in the 
states.
    We applaud the Administration's efforts to streamline the 
operations of the Office of Justice Programs. Nonetheless, the proposal 
at hand would deal a tragic blow to the now nearly six years of 
coordination, collaboration, and communication within and outside of 
the VAWO. The Department's proposal to create separate departmental 
functions to serve across divergent and unique programs would result in 
severely fragmenting and undermining the progress we've made in 
implementing violence against women programs. The single biggest reason 
that so much is going on so well and so swiftly in the states is in no 
small measure due to the guidance, leadership, and staff commitment of 
the VAWO. The VAWO has demonstrated what is required by statute of the 
states: coordination, collaboration and communication.
    In retrospect, Congress conceived a brilliant formula for 
successful implementation. The very process by which VAWO began their 
work in 1994 continues today. VAWO reached out to experts in the field 
and talked with community and state-based stakeholders (law 
enforcement, victims services, prosecution, judiciary) to establish a 
grantmaking process that fully integrated formula and discretionary 
grantmaking, policy development, and training and technical assistance. 
Implementation of VAWA 1994 through a coordinated, focused function 
within VAWO has contributed mightily to accomplishments that we can 
point to today. The only thing lacking is that the VAWO should be a 
statutory office, with the highest level of access within the 
department, not subject to the designs of whatever Administration might 
be in place. Violence Against women, and particularly domestic 
violence, is a critical national concern--it merits national attention 
in the Department of Justice. The adage ``if it ain't broke, don't fix 
it'' is most applicable here.
    The fact that Congress passed the Violence Against Women Act of 
1994 and committed much needed resources to states and local 
communities for the purpose of addressing violence against women was a 
sea change in the nation's conception of violence against women and 
especially domestic violence. In effect, Congress said to the nation, 
``Violence against women is wrong and we intend to bring human and 
capital resources to bear to end this violence.'' But, it would not 
have been enough simply to confine the role of the Department to that 
of a ``money tree.'' Instead, the Attorney General took on this work 
enthusiastically, appointing a high-level policy person to give vision 
and leadership to violence against women--Bonnie Campbell. The Attorney 
General separated, elevated, and consolidated the various grantmaking 
mandates of VAWA 1994 under one house. There are a number of reasons 
this structural concept has contributed to successful VAWA 
implementation. Among the most important is that the structure enabled 
the Department to move swiftly to implement this important 
legislation--Congress should have expected no less. And, yet here we 
are today, with a proposal before us that would again relegate domestic 
violence to the closet of government bureaucracy. On behalf of the 
millions of women who are battered each year and the many systems that 
are closer than ever before to ``getting it,'' please do not sacrifice 
action for administration.
    Let me share with you why in the case of violence against women 
programs a coordinated, focused effort is appropriate and critical. On 
a policy level, the Congress passed a law that required states to honor 
and enforce other states' protection orders. This was a tremendous step 
forward for victims who continued to be victimized from one 
jurisdiction to another. The VAWO recognized that implementation would 
be easier said than done by the states. The states needed model 
implementing legislation, coordination among various components of 
state government, model protocols, practices and standardized forms, 
and guidance with data base design and development, to name just a few 
things. VAWO is helping states figure out how to implement the 
protection order law by facilitating meetings with regional and 
neighboring jurisdictions, training, and other more state specific 
assistance. This is coordinated implementation that comes from the 
leadership of the VAWO.
    On the program level, the story of state VAWA administrator Barry 
Bryant in North Carolina is not unlike many states. Barry administers 
Victims of Crime Act funds and VAWA funds for his state. He first 
received word of the impending federal funds in 1994 from the director 
of the newly created grants office. Barry was so enthusiastic about 
this new federal program that he immediately called the VAWO to talk 
about all that he would like to do in North Carolina. Knowing the 
complexity of the Department of Justice, given his work administering 
Victims of Crime Act funds, Barry was surprised to actually speak with 
the grants director. Since that time Barry has had untold number of 
conversations, meetings, training, technical assistance and policy 
guidance from the VAWO. In Barry's words, VAWO has provided ``guidance, 
coordination, opportunities for collaboration and learning from other 
states, and flexibility.'' Barry directly attributes his state's 
ability to move forward in developing innovative programs, creating 
policy and systems change, conducting training, and establishing 
collaboration among law enforcement, victim services, and prosecutors 
(to name a few) to the way in which VAWO has coordinated the formula 
and discretionary grantmaking, policy making, and technical assistance 
resources.
    As an example of how he has worked with VAWO, Barry cites his 
desire early on to engage law enforcement officers in learning about 
domestic violence and strengthening policing and evidence collection. 
He talked about these challenges with the VAWO staff. They recommended 
that Barry attend a site visit to the model court and community 
coordinating program in Quincy, Massachusetts. It was there that Barry 
learned about developing a coordinated community response to domestic 
violence, facilitating communication among the justice system 
components, and the Polaroid project to teach the use of photographic 
techniques to police officers responding at the scene of a domestic 
violence call. Barry used this information and his new contacts to 
develop a training program in his state. He used VAWA resources to 
purchase Polaroid cameras for police officers, prosecutors and victim 
services providers. The ``catch'' was that if you attended the training 
(which covered multiple levels of domestic violence issues) you would 
get a camera for use at your community location. The result was that 38 
of 39 jurisdictions sent multidisciplinary teams to the training. 
Today, these teams are not just taking evidence. They are actively 
engaged in coordinating efforts in their communities on an ongoing 
basis. Barry says that had it not been for VAWO facilitating training 
and technical assistance, providing guidance on policy and 
implementation, and coordinating grantmaking to North Carolina, they 
would not be where they are in implementation. From state 
administrators to nonprofit domestic violence programs to law 
enforcement units to prosecutors, the stories are numerous about ways 
in which this coordinated, focused effort we call VAWO has contributed 
directly and indirectly to six years of accomplishments throughout the 
states in VAWA implementation. The VAWO has encouraged replication, 
mentoring, state-to-state communication and collaboration for the 
people who are on the ground every day trying to make headway in ending 
violence against women.
    Since 1994, millions upon millions of federal dollars have been 
sent purposefully and speedily to states to tackle the tremendous 
problems of violence against women. It is not an exaggeration to say 
that this maneuvering through the ordinary maze of federal grantmaking, 
policy making and technical assistance would not have been possible 
without the coordination and leadership provided through VAWO.
    VAWO does not tell states what to do, rather it provides capacity 
to see the state's vision through. VAWO's attention to collaboration, 
communication and coordination has been replicated in amazing ways 
throughout the states. Their focus on mentoring among the states has 
encouraged states to focus on mentoring among communities within their 
own states. VAWO itself is a seamless web of resources for state 
administrators and justice system stakeholders--this seamless web 
concept is percolating throughout the states as well, Barriers to 
sharing information, resources, successes and failures are breaking 
down. The bureaucracy is becoming more transparent to victims--we are 
by no means there yet, but it's happening. We are enhancing law 
enforcement, prosecution of crimes, and safe and accessible services 
for victims. This is your vision of VAWA 1994, and it is one in which 
the VAWO is the wheelbearing that has enabled us to realize that 
vision. VAWA 1994 programs give life and breath to a policy of creating 
systems and institutional changes to end violence against women. Such 
an approach cannot be achieved in a centralized, one-size fits all 
approach that may satisfy administrative concerns but ultimately 
defeats the goal of successfully implementing the law.
    The Department of Justice could have begun implementation of the 
VAWA 1994 like so many other federal programs--one element disbursing 
formula grants to states, another handling discretionary grants, 
another promoting policy in absence of direction from the field, and 
still another doling out technical assistance that's uninformed by 
existing need and practice. I'm pleased that the Attorney General had 
the foresight in 1994 to resist the urge of fragmentation. Mr. 
Chairman, for state administrators like Barry Bryant of North Carolina 
and for victims across the country, I urge this Subcommittee to do the 
same today. Thank you for your consideration.

    Senator Sessions. Well, those are very good insights and 
factors that all of us ought to consider as we go through this, 
and I thank you very much for sharing those with us.
    Ms. Edwards, on this proposed new structure, there would 
still be--I guess it looks a little small on that chart; it 
might make you nervous because it is just a little bit smaller, 
but it does maintain these individual sections. I guess they 
are less autonomous, less independent, and on their own.
    Right now, for example, I understand that programs to 
combat family violence are funded through OJJDP, the Violence 
Against Women Office, NIJ, BJA, and the OVC. Is it possible 
that we can streamline this in a way to make that more 
effective? Are you convinced personally that we just need a 
single quasi-independent Violence Against Women Office?
    Ms. Edwards. I guess rather than talking about the 
independence of the office with respect to whether it is a 
presidential appointee or not, I think that we can get there. 
But if you look at the proposed restructuring plan, although 
there is a violence against women section, that section really 
is designated to handle the discretionary grant programs, 
things that are not the formula State grant programs. Those 
programs fall under the State desks, and then the research 
falls under NIJ and some smaller level of work falls under the 
Bureau of Justice Assistance and under the OVC currently.
    Well, what I would suggest to you is that there is a great 
relationship between discretionary grant-making and the State 
formula grants. I know from my own experience doing those 
grants here--I have supervised the planning process here in the 
District of Columbia locally, and when we sit down at the table 
with all of the different folks--police, prosecutors, and all 
of us who need to figure out what grant programs to apply for--
we really consider what the potential is under the various 
discretionary programs and then structure the formula program 
application based on what we might do with discretionary 
grants.
    What I see here is a bifurcation of those functions so that 
one hand really could not know what the other is doing, so that 
you force competition. So as a local law enforcement agency, I 
might decide I would go and apply for a Grant to Encourage 
Arrest, and also include that same program in the formula grant 
plan that goes out. That then creates overlap, whereas if I am 
doing this in a coordinated fashion and the person who is 
responsible for that is all sort of in one house, they will 
know and I will know that we would be better served by actually 
coordinating those applications, applying for a first responder 
program under a STOP grant and applying for a legal assistance 
program that supported that under the discretionary grants and 
not overlapping.
    I do see, however, that, for example, with the National 
Institutes of Justice providing a research and evaluation 
function, that function with respect to violence against women 
actually has worked in a very coordinated fashion and has 
really been informed by the sort of programmatic people in the 
Violence Against Women Office to construct that research 
agenda.
    I actually don't see a problem with that as long as there 
really is, whether it is by statute or understanding, 
communication between the research function and the other 
grant-making function so that you make the research have 
validity with respect to what is going on in the field.
    Senator Sessions. Very good.
    Mr. Blumstein, do you have any comments about that, in 
general, that whole concept?
    Mr. Blumstein. I really appreciate Ms. Edwards' comments 
about, first, the research having to be connected to 
programmatic activity, but having its own separate 
independence. I thought that comment was important and a good 
model in relationship to the potential juvenile justice 
programs downstream.
    Another observation that her comments triggered was the 
inherent need for coordination at the State level and the local 
level, so that in developing their grant-applying and grant-
making strategy they do the coordination so that in the Mobile 
case and in the Alabama case the discretionary grants they seek 
are coherent with their uses of the formula grants. And it is 
particularly important that that be done at the State level and 
at the local level, which is where I have had some grant-making 
and grant-getting experience. And I think that is important to 
do.
    I like the reorganization plan because it brings a 
similarity in dealing with this diverse array of issues, 
whether they be corrections, whether they be violence against 
women, whether they be police operations. There is a similarity 
to the way they work, and because they all report to the OJP 
director, that director and his or her office should be very 
conscious of making sure that there is coordination across 
those offices, that they aren't merely letting issues fall in 
the cracks, because so many criminal justice issues will 
involve two or more pieces of this complex puzzle, as you 
pointed out in the earlier discussion.
    Senator Sessions. Mr. Voegtlin.
    Mr. Voegtlin. Well, I disagree. I mean, I do agree with 
what he was saying, and I think what we are talking about here 
is, yes, there is a need for coordination by the practitioners 
at the State and local level. But there is also a need--and I 
think this is what the plan is striving to do--to coordinate 
what is going on at the Federal level here.
    I do not deal directly with OJP all that often myself, but 
our research folks do, and they would explain to me that 
looking at that chart over here to the left that those boxes 
would be better defined as walls; that the offices don't talk 
to each other, that they have similar programs running in each 
of the offices on many different types of activities and they 
are not talking. So the same kind of coordination that Ms. 
Edwards was just talking about between the police, the 
prosecutors, the advocates, and the State and local level would 
be taking place under the new structure at the Federal level, 
and I think that is what we are striving for.
    Now, I understand her concerns with losing, or fearing to 
lose--and I can't speak to what the actual effect of it would 
be--a certain level of visibility and priority for certain 
programs, not just violence against women, but all important 
programs. So I understand there is a legitimate concern there 
and I think it needs to be addressed. But I think that what we 
can't lose sight of is the need for coordination at the Federal 
level more than anything, trying to get these folks talking to 
each other, because they have all got good programs and good 
ideas, but sometimes it is already being done. So instead of 
wasting the energy to do it twice, they could be working 
together to find a better solution for another problem.
    Senator Sessions. In your experience of the Association of 
Chiefs of Police, have you found that some departments are 
frustrated with dealing with the Government bureaucracy and 
have just given up making applications, or have heard it is so 
complex that they oftentimes don't make the effort, when they 
might benefit if they did?
    Mr. Voegtlin. Well, I don't know if they have given up 
because of frustration. I think a lot of it is they have just 
given up because they don't have the time. They don't have the 
people in place. I spoke earlier about how there is a fear 
among small departments that the State and larger cities are 
getting more grants than they may otherwise get just because 
they know who to talk to.
    We have some police departments in this Nation that are 
three people, you know, a chief and two officers, and maybe a 
part-time civilian. They just don't have the time, if they even 
know of a grant, to go through the process of finding it. So it 
may be not so much giving up, just saying it is not worth it, 
but just having to focus on other issues, you know, dealing 
with felons and other more actual policing matters.
    Senator Sessions. In your opinion and the unanimous opinion 
of the Executive Committee, this would improve their ability to 
have access?
    Mr. Voegtlin. Absolutely. If they can call one person and 
say, here is what I am trying to do, I have heard about this, 
who do I talk to, and getting an answer, getting some 
assistance, getting somebody to point the way would make it 
just--I can't tell you how much easier it would make it. When 
the Executive Committee debated this, I was in the room and we 
had chiefs from places like Jackson Hole, Wyoming, and even 
smaller departments than that just talking about how they hear 
about all these great programs, but they don't know what to do.
    One program that came up was the Bullet-Proof Vest 
Partnership Grant Act, something that many chiefs want to 
participate in and is actually one of the easier programs to 
get in touch with at OJP. But still they were confused. They 
had talked to somebody on one program in the past. They tried 
to call the same person up and that person either no longer 
worked there or didn't know about this new program. So they 
thought, OK, I have got the wrong office. And then they tried 
to call Main Justice and they just got frustrated.
    Senator Sessions. Better not try to call Main Justice. 
[Laughter.]
    They call my briefcase the black hole, but a call to Main 
Justice is--it is hard to get through from there, it really is. 
I can understand that. I have at times tried to do that myself.
    Well, I will say, Mr. Blumstein, that I think you are 
correct in insisting on the integrity of statistics and 
research. That is a very, very important issue. I remember when 
I was a U.S. attorney, I had done some research on it 
personally, on the boot camps. We thought that was going to 
cure juvenile crime. Do you remember that?
    Mr. Blumstein. Certainly.
    Senator Sessions. I mean, Newsweek and everybody, and the 
first numbers came out of Louisiana and it was stunning that it 
didn't seem to be quite as good as everybody had thought. 
Subsequent research has replicated that, I think, to the extent 
to which you have got to run them right and it is a very 
sophisticated program. But just getting people up and making 
them say ``yes, sir'' and running them up and down the road 
doesn't necessarily change their lifestyle.
    Mr. Blumstein. And it is very hard for an organization that 
has initiated a program----
    Senator Sessions. To admit that.
    Mr. Blumstein [continuing]. To do the analysis that says, 
gee, it doesn't work.
    Senator Sessions. That is right. I remember the judges from 
Miami who started the first drug court. I hosted them to speak 
in Mobile, AL, and the numbers were something like a 95-percent 
cure rate. And I remember telling the judge, I said, judge, I 
do not believe those numbers, but if you could get 50-percent 
cure rates, we ought to adopt your program. And I don't know 
where the progress rate is or what the latest data is, but it 
doesn't get that high a level. But that was their program that 
they believed in, and they saw the good side maybe more than 
they saw the adverse side.
    So I think an independent analysis and review, independent 
statistical data, is important. I don't know that you have to 
have a presidential appointee to achieve that, but there needs 
to be something done to ensure it.
    Mr. Blumstein. Well, the other Federal departments do seem 
to believe that is an important part of it, and I think that is 
an important model to use here. I might note that what you 
don't want is a resolution from the 95 and the 50 by the judge 
saying, OK, it will be 50, rather than going out and doing an 
independent measurement.
    Senator Sessions. Well said. You mentioned a phrase that we 
need to bring order out of chaos. How would you describe what 
you see as the chaos part of this problem?
    Mr. Blumstein. I think Laurie Robinson in her testimony 
defined the chaos, and you in your introductory statement 
defined the chaos that one doesn't know where to go. Activities 
that have a similar nature of grant-giving, of discretionary 
grant-giving, sometimes are at independent levels, sometimes at 
a subordinate level.
    As much of the testimony has suggested, there is no place 
that somebody who has a good idea knows where to go. And so I 
think there is a chaos of lots of autonomous entities that are 
doing very similar things, and I think grant-giving, I think 
technical assistance, I think administration of discretionary 
programs have a similarity and there should be coordination 
across those so that they are not trying to do the same thing 
and so lots of things don't fall into the cracks. That is where 
the order comes in terms of coming to understand where the 
needs are.
    And those needs change with time and those needs are going 
to be very different in different jurisdictions. And so there 
has to be both a responsiveness to local requirements, as well 
as a recognition that what we have is a system that isn't 
coordinated very well in its operations. But this plan moves it 
toward a system that is intended to achieve better effort at 
reducing crime and making the criminal justice system more 
effective, as seen at each locality and its distinctive needs.
    Senator Sessions. Well, I think that is true. Would you 
agree that when you have an agency that goes from $800 million 
to $4 billion in funding, we have gone through a pretty 
significant change in its demands and it would be appropriate 
to review its organizational structure?
    Mr. Blumstein. Absolutely. The timing is right, and if any 
Federal agency can be described as having grown like topsy, 
this one has because there are things all over the place. And 
it is clear that some order is necessary to make it more 
effective and to reduce the inconsistencies in the operations.
    Senator Sessions. Mr. Voegtlin, on the State desk concept, 
is that what is most attractive to you? Do you think that is a 
key part of what you find attractive?
    Mr. Voegtlin. Well, it is both the State desk and the State 
and local information transfer areas. As we understand it, the 
actual State desk is for the administration of grants. The 
information transfer office is kind of the place you call when 
you are just starting out, trying to find out where things are 
and where to go. So I think those two in tandem, one to help 
you get started, the other one to help you keep moving after 
things get in place, are the key components of this.
    I don't remember who spoke earlier about--I think it might 
have been Ms. Robinson when she talked about how Missouri would 
have 12 separate folks that you would have to talk to, as 
opposed to one person who would be able to deal with all the 
comprehensive need to refer what is in your area. You know, 
anything that eases simplicity and makes it easier for a chief 
or a mayor or whoever is detailed from the department to call 
up and get an answer so they can get back to actually doing 
police work is vital in this plan and, in our opinion, the 
critical component.
    Senator Sessions. It is just extraordinarily hard, and I 
have every now and then had a direct insight, a clear view of 
it, and it slips out of my brain at other times. But I really 
believe that the key to a major improvement in our effort 
against crime and a lot of social problems related with crime 
is bringing the agencies together in a coordinated whole.
    A family which has spousal abuse may have child abuse, or a 
child who grows up to be a spouse abuser may have an alcohol 
problem that is exacerbating an anger problem or mental health 
problems. Financial problems cause those kinds of things. And 
you go from the pre-school to school, the truancy programs, the 
drug intervention testing programs. We are spending money on 
all of those, but they are not very well working together in a 
comprehensive program.
    I think Jimmy Carter tried it with the Atlanta Project to 
see if he could make agencies work together. We tried it in 
Mobile and I think made some progress in having agencies agree 
on sort of a memorandum of understanding. The sheriff will 
designate somebody for juvenile cases, and judges will have 
this and that and the other. Anyway, it is just hard to 
accomplish. Why I am intrigued by this is I believe it moves us 
somewhat more in that direction than the stratified programs, 
the walls, maybe, that you suggested.
    Let me ask you sincerely, is there anything you would like 
to add, any comments or overall views that you think this 
committee should be aware of before we adjourn this afternoon?
    Mr. Blumstein, do you have anything?
    Mr. Blumstein. No; I think we have covered much of it.
    Senator Sessions. Mr. Voegtlin.
    Mr. Voegtlin. We are good.
    Senator Sessions. Ms. Edwards.
    Ms. Edwards. Just one last comment. I am concerned that we 
haven't really gotten into a discussion about what other kinds 
of statutory changes might have to be made because of the 
statutory creation of these various bureaus and program areas 
which I think opens up a whole process that I am not sure any 
of us can quite have a vision of yet. And I would like to see 
some further discussion of that because it really directly 
impacts whether any changes at all would be able to be made to 
the organizational structure of the Office of Justice Programs.
    Senator Sessions. Well, I think that is an important 
insight. We do need to consider what other creations have 
occurred over a period of years. It is sort of like we have 
added on to this big house room by room, not very well thought 
out. But we may have some statutory problems as we go forward 
that will have to be addressed and we will certainly have to 
look at that.
    We will keep the record open for an additional 5 days if 
anybody would like to submit any information or any of the 
other Senators wish to submit questions to you. We would 
request if you receive written questions that you respond to 
those.
    We will look at this. I am glad that OJP is wrestling with 
the problem. I think it is important that all agencies be 
involved. I know, like in violence against women, there was a 
group of people that worked their hearts out to get that 
legislation passed. It is probably like raising a child that 
somebody is messing with that child that you helped create. 
And, actually, it is true for each one of these; some are just 
older than others. Whether we can make the kind of changes that 
have been suggested here, I am not certain, but we are going to 
receive it positively and work at it and we are open to hear 
any questions and criticisms you may have.
    If there is nothing further to come before the 
subcommittee, we will stand adjourned.
    [Whereupon, at 3:58 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


                         Questions and Answers

                              ----------                              


    Responses of Laurie Robinson to Questions From Senator Sessions

    Question 1. Has the Center for Domestic Preparedness met all its 
goals for training First Responders to this point? Have the consortium 
schools likewise met the annual goals you set out for them?
    Answer 1. The Center for Domestic Preparedness (CDP) and the other 
Consortium sites have met the fiscal year 1999 training goals set for 
them by the Office of Justice Programs (OJP). The goal set for the CDP 
was to train 1,300 students in fiscal year 1999 they have met and 
exceeded that goal. The cumulative goal set by OJP for the other 
consortium members was for them to train a total of 1,300 students. 
They also have met and exceeded that goal.

    Question 2. What other initiatives are you considering for Ft. 
McClellan next year that will strengthen this facility, and get us 
closer to the goal of training 10,000 resident students annually? How 
will the Department fulfill the guidance in the fiscal year 2000 CJS 
Appropriations Bill to work with the National Guard to develop a 
comprehensive distribution network for non-resident, distributed 
training?
    Answer 2. OJP is currently working with numerous federal agencies 
to put agreements in place to train their responder personnel. OJP is 
working with the Public Health Service (PHS) to strengthen the CDP 
training curriculum and to fully integrate future PHS training at the 
Army Noble Hospital into the current CDP training courses. OJP is also 
working with the National Guard and the responder community to 
determine the types of courses that can be delivered through distance 
learning, such as via the Internet and CD-ROM, as well as 
teleconferencing, and the costs associated with delivering the courses.

    Question 3. Is Ft. McClellan the Department's primary training 
location for first responders? What do you envision as its secondary 
training facilities around the country?
    Answer 3. The Center for Domestic Preparedness at Fort McClellan, 
Alabama is a central component of OJP's overall training program for 
first responders. In addition to the CDP, OJP administers training 
programs through the other four sites in the National Domestic 
Preparedness Consortium (NDPC) (the New Mexico Institute of Mining and 
Technology, the National Exercise, Test and Training Center at the 
Nevada Test Site, Louisiana State University, and the Texas Engineering 
Extension Service at Texas A&M University). Further, based on authority 
received under the ``Antiterrorism and Effective Death Penalty Act of 
1996,'' OJP administers the metropolitan Firefighter and Emergency 
Medical Services (EMS) Program. This program, developed in partnership 
with the Federal Emergency Management Agency's (FEMA) National Fire 
Academy, provides direct training, train the trainer, and self-study 
training to firefighters and EMS personnel nationwide. Beginning in 
October 2000, OJP will also have responsibility for the administration 
of the Nunn-Lugar-Domenici Domestic Preparedness Program, following its 
anticipated transfer from the Department of Defense to the Department 
of Justice. These programs collectively comprise the major elements of 
OJP's first responder training effort, and are administered in a 
coordinated fashion by the proposed Office for State and Local Domestic 
Preparedness Support (OSLDPS).
    Each program represents a unique and critical component of OJP's 
overall training effort, with no single program or location serving as 
the primary element. Rather, the various programs function as discrete 
points on a training continuum, with the train-the-trainer program 
providing basic, awareness level training, and more specialized 
training provided in different areas at each of the NDPC sites.

    Question 4. Has OJP and the Department made any budget concerns 
known to the CJS Appropriations Committee since the House and Senate 
mark up? If not, when do you expect to speak with Senator Gregg? What 
is the current out-year budget forecast for Ft. McClellan?
    Answer 4. OJP understands that the Department of Justice, of which 
we are a part and which manages the Appropriations process on our 
behalf, has forwarded its formal fiscal year 2000 Appeal Package to 
both the House and Senate Appropriations Committees. OJP agrees that an 
appropriation of at least $15 million is required to administer an 
effective training program at Fort McClellan in fiscal year 2000, and 
OJP has appealed for funding at the level requested in the President's 
Budget: $17 million.
    As for fiscal year 2001, the Department's request will be submitted 
formally to the Congress in February 2000, when final decisions have 
been made in the Executive branch. At this point, the Department's 
budget request has not yet been formally submitted to the Office of 
Management and Budget, and is not available for dissemination.

                   ADDITIONAL TRAINING OPPORTUNITIES

    Question 1. It appears that the State Department's Antiterrorism 
program is requesting assistance in setting up a program for foreign 
law enforcement personnel training. This six week, 21 course training 
curriculum might be well suited for co-location with the Center for 
Domestic Preparedness, as both seem to have similar objectives. Have 
you personally looked into training in order to maximize the taxpayers' 
investment in Ft. McClellan?
    Answer 1. OJP is open to a training partnership with the State 
Department, and has engaged the State Department on this issue. State 
Department officials have visited Fort McClellan to determine if the 
facilities there meet the State Department's training needs. OJP will 
continue to engage in training partnerships with other federal 
agencies, including the State Department, as long as those partnerships 
do not interfere with the CDP's primary mission: training the nation's 
state and local first responders.

    Question 2. In light of recent events, many have noted the need to 
look at the necessity for training school officials and administrators 
in emergency and disaster preparedness. Is the Department of Education 
or the Department of Justice better suited to conduct this needed 
training? Where is the best place to do it, and how much funding do you 
think is necessary to carry out a week long workshop that would be both 
resident, and conducted by mobile training teams?
    Answer 2. DOJ is working with the U.S. Department of Education and 
the U.S. Department of Health and Human Services to support coordinated 
school and community safety efforts. The Northwest Regional Educational 
Laboratory has been awarded a grant to operate the National Resource 
Center for Safe Schools. This center, funded by the Safe and Drug-Free 
Schools Program and the U.S. Department of Justice, Office of Juvenile 
Justice and Delinquency Prevention, will offer training and technical 
assistance that will enable schools and communities to create safe 
school environments.
    In addition, OJJDP offers the SAFE POLICY training course 
nationwide. School Administrators for Effective Police, Prosecution, 
Probation Operations Leading to Improved Children and Youth service 
(SAFE POLICY) trains law enforcement and school personnel on:

  1. Effective use of school tiplines by schools and others and threat 
    assessment.

  2. Information sharing between schools, police and other agencies 
    serving troubled, problem and delinquent youth.

  3. Use of information by schools, police and other youth serving 
    agencies to assist troubled, problem and delinquent youth and to 
    enhance threat assessment and threat reduction.

  4. Police, school, parent, social service partnerships to maximize 
    collection and use of resources for the most troubled youth.

  5. Media/police protocols to better manage live broadcast of hot 
    situations.

  6. Realtime surveillance of school property.

  7. Early recognition of the sips of danger in the most troubled 
    children and youth by schools, police, and other service agencies 
    and a community case management process to deal with those cases.

    Further, OJP is continuing to participate in interagency efforts 
with FEMA, Education, and HHS to develop a coordinated federal response 
to communities that experience crisis incidents in schools, such as the 
recent shootings. The interagency working group, which includes 
representatives from OJP, OJJDP, and OVC, is finalizing the School 
Emergency Response to Violence (Project SERV) proposal, using comments 
from constituency groups and school violence experts who reviewed an 
earlier draft. Guidance from the field was sought on such issues as the 
kind of crises the federal government should assist, services to be 
provided, and application procedures. A $12 million request to support 
the project was included in the Department of Education's fiscal year 
2000 budget request. The working group is now developing program 
guidelines and an accelerated application process, similar to FEMA's 
emergency response grant procedures. It is anticipated that the program 
will be ready for operation when Congress takes final action on 
Education's fiscal year 2000 appropriation. President Clinton first 
announced plans to propose Project SERV at the October 1998 White House 
Conference on School Safety.

  CONSOLIDATION AND STANDARDIZATION OF FEDERAL DOMESTIC PREPAREDNESS 
                                TRAINING

    Question 1. How and when will the Department create a standardized 
training program?
    Answer 1. The Office of Justice Programs' (OJP) proposed Office for 
State and Local Domestic Preparedness Support (OSLDPS) is currently 
working on the development of a strategy and plan for its training 
programs. This strategy, anticipated to be completed in the first 
quarter of fiscal year 2000, will lay out plans for curriculum 
development, student selection, and the matching of available training 
with jurisdictional needs identified both through past and ongoing 
needs assessments. Focus will also be given to protocols for training 
execution, forecasting of future training needs, and identification of 
existing training shortfalls. A critical element of the strategy will 
be the standardization and tiering of OJP's existing and forthcoming 
training programs. This will ensure that a standardized level of 
training is provided through all of OJP's delivery mechanisms.

    Question 2. When will the Committee see a comprehensive national 
training strategy that provides the type of guidance that all our 
national, state and local training sites need to eliminate any 
potentially wasteful duplication of effort, resources, and funding?
    Answer 2. The proposed National Domestic Preparedness Office (NDPO) 
has been directed under the Attorney General's Five Year Interagency 
Counterterrorism and Technology Crime Plan to develop a comprehensive 
national domestic preparedness strategy for the federal government. 
This strategy is anticipated to focus on planning, training, equipment 
and exercise initiatives, with the specific objectives of eliminating 
duplication of effort, identifying gaps in existing efforts, and 
proposing solutions to meet those shortfalls. When completed, this 
strategy will provide guidance to all federal agencies involved in 
domestic preparedness, and will serve to streamline and integrate their 
programs into a coherent and focused federal effort.
    As a participating agency in the proposed NDPO, OJP will be 
actively involved in the development of the national domestic 
preparedness strategy, as well as in its implementation. Additionally, 
OJP will ensure that the work conducted under OJP's own internal 
domestic preparedness training strategy dovetails with, and does not 
duplicate, work conducted at the NDPO. OJP's internal strategy is 
focused on the implementation of OJP's training programs, and their 
delivery nation-wide. The national strategy to be developed at NDPO 
maintains a macro-level focus, looking at domestic preparedness efforts 
across all federal agencies and how they fit together to form a 
complete program effort. The two strategies, therefore, are 
complementary in nature, and not duplicative.

    Question 3. What is OJP's plan to implement the Nunn-Lugar II 
training program once it is transferred from the Department of Defense, 
and who within OJP will manage it? How will OJP manage the transfer of 
the program? Has OJP considered delegating the management of the 
program to the Center for Domestic Preparedness Director and his staff?
    Answer 3. In accordance with an anticipated designation by the 
President, and a Memorandum of Understanding (MOU) signed by the 
Department's of Defense and Justice, the Department of Justice (DOJ) 
will assume programmatic and funding responsibilities for several 
elements of the Nunn-Lugar-Domenici (NLD) Domestic Preparedness Program 
beginning in fiscal year 2001--specifically, the City Training program 
and portions of the Improved Response Program and the Expert Assistance 
Program. Following the transfer, it is anticipated that the Attorney 
General will delegate responsibility for the City Training Program and 
the Improved Response Program to OJP, and responsibility for the Expert 
Assistance Program to the Federal Bureau of Investigation (FBI).
    Within OJP, OSLDPS will administer the NLD Program. After 
considerable thought about the management of this program, OJP believes 
it is best to base it in Washington, DC. The rationale for this 
decision is four-fold. First, the NLD program will only be a part of 
OJP's overall national training effort, and must be closely coordinated 
with other OJP programs administered by OSLDPS. Second, as only some 
portions of the NLD program will be transferred to OJP, it is essential 
for program continuity that the administration of these portions be 
closely coordinated with the administration of other program elements 
by DOD and the FBI. Moving the program's nerve center outside of 
Washington, DC would make both of these coordination efforts more 
difficult. Third, state and local officials are accustomed to working 
directly with OSLDPS to meet their equipment and training needs. The 
administration of the NLD program will require extensive contact with 
state and local communities, locating the program away from OSLDPS' 
main offices will create a second point of contact within the 
organization, complicating communication efforts for the end users. 
Finally, the CDP has a specific mission to provide on-site, specialized 
training for emergency responders. By contrast, the NLD program 
provides more basic, awareness, and operations level training delivered 
locally to each city. This is a very different program orientation, and 
falls outside the mission of the CDP.
    To ensure the smooth transition of the City Training Program and 
the IRP from the Department of Defense (DOD) to OJP, OSLDPS plans to 
begin working on the administration of the program through active 
participation with DOD in program activities during fiscal year 2000. 
Active involvement in the program during fiscal year 2000, the 
transition year, will enable OJP to navigate its learning curve with 
respect to the administration of the program before the formal 
transfer, allowing the transition to appear seamless to the end user. 
Additionally, this plan will place OJP in a position to fully engage in 
the program's administration with no disruption in programmatic 
activities once the official transfer takes place on October 1, 2000. 
Finally, the time line of the City Training program is such that many 
cities initiating the training process in fiscal year 2000 will not 
complete their training until sometime in fiscal year 2001. By actively 
participating in all elements of the training conducted for these 
cities in fiscal year 2000, OJP can maintain continuity in the program 
for these cities through the transition.

    Question 4. During your presentation on OJP's reorganization last 
week it was obvious you spent a great deal of time working out the 
details. It seemed, however, that you may have placed first responder 
training into part of your organization which has an overwhelming 
number of key issues assigned to it. Is it possible that in doing so 
the need to focus on the training and development of first responders 
will be limited and lost? Have you considered any other management 
options within your restructuring initiative which would enhance, 
rather than limit, the development of the first responder training 
initiative at Fort McClellan and elsewhere?
    Answer 4. Yes, I have looked again at the placement of the Office 
of State and Local Domestic Preparedness Support (OSLDPS) in the 
proposed reorganization, and looked at the following management option: 
As described in the restructure report sent to Capitol Hill in March 
1999, OSLDPS would be one of nine program offices reporting to the 
Assistant Attorney General through an Office of Criminal Justice 
Program Development. Because of concerns expressed by constituents in 
several other areas contained in the proposed Office of Criminal 
Justice Program Development, I have, with the concurrence of the 
Associate Attorney General, suggested as an alternative that these 
offices--including OSLDPS--retain their current status in reporting 
directly to the Assistant Attorney General. The benefit of this 
revision is that the issues of first responder training and domestic 
preparedness would remain ``front and center'' for the Assistant 
Attorney General, with its head reporting directly to the AAG. The 
Department and the Office of Justice Programs share your commitment to 
the issues of first responder training and domestic preparedness, and I 
believe the revised proposal can meet any concerns you may have. (A 
proposed revision organization chart is attached.)

[GRAPHIC] [TIFF OMITTED] T7858.001

  POTENTIAL AREAS FOR CLARIFICATIONS/COMPROMISES: REFLECTED ON DRAFT 
                             REVISED CHART

Potential areas of change/clarification from 3/99 reorganization plan
  <bullet> Formula grants: Retain formula grants in their ``home'' 
        bureau or program office. Under this change, the JJ formula 
        grants would still go to the Juvenile Justice Office, victim 
        formula grants to the Victims Office, the STOP Violence Against 
        Women grants to the VAWO office, etc. These offices would 
        thus--as now--have all responsibility for conceptualization, 
        planning and oversight (including the creation of application 
        kits and guidance) for these funding streams. The state desks, 
        through the Office of Grants Management (renamed from the 
        Office of Formula Grants), would play a support role, handling 
        the routine processing and administration of OJP grants once 
        grant decisions were made by the program office--in the same 
        way that OJP's Comptroller's Office provides a support role on 
        financial matters to every program office and bureau in OJP 
        today. This has the benefit of relieving program staff of 
        mundane day-to-day grant management chores, and also, 
        importantly, protects OJP and the Department from criticism for 
        failure to handle, in a timely fashion, needed grant management 
        tasks like filing of monitoring reports, close-outs, etc.--an 
        issue on which the Inspector General and other auditors have 
        consistently criticized the Department. Right now, for example, 
        program office bureau staff across OJP are burdened with close-
        outs on the first cycle of the early Crime Bill grants--this is 
        nearly 4,000 grants across OJP. Under this proposal, the state 
        desks could efficiently handle tasks like close-outs, grant 
        adjustment notices, food & beverage approvals, etc. These tasks 
        are ministerial, but critical for the Department's ensuring 
        sound grant management, particularly when OJP is managing such 
        large sums of money. These mundane, and often unexciting, tasks 
        far too frequently get pushed to the side by program/policy 
        staff, and OJP is, right now, vulnerable in this area. 
        Moreover, monitoring through the state desks--something many 
        state and local agencies have told us they heartily endorse--is 
        a more efficient and cost-effective means of handling this area 
        of responsibility. Staff on the state desks would regularly 
        share with program staff feedback from the field. This would in 
        no way preclude program staff from getting out into the field, 
        observing projects underway, and interacting regularly with 
        grantees.

  <bullet> Office of State and Local Information Transfer: The revised 
        chart clarifies that this ``information central'' office would 
        act as a pointer system about technical assistance, training, 
        publications, grants and other help available across OJP. This 
        office would not itself write the publications, perform the 
        field TA, administer the TA grants and contracts, or perform 
        the training. The program offices and bureaus would continue to 
        handle and control these areas.

  <bullet> Office of Juvenile Justice & Delinquency Prevention 
        Programs: Retain the juvenile justice formula grants in the 
        Juvenile Justice Office, while providing routine grant 
        management support from the state desks. The chart clarifies 
        that the JJ Office would also continue to handle all juvenile 
        justice-related program grants, TA, training, and publications 
        (except for mechanics of printing).

  <bullet> Office for Victims of Crime: Re-elevate OVC to a ``higher 
        level'' on the chart. Retain its present name. OVC would be 
        responsible for all crime victim TA, discretionary grants, 
        publications and formula grants (with routine support on the 
        latter from the state desks).

  <bullet> Office of Criminal Justice Program Development: Eliminate 
        the ``intermediary'' Office of Criminal Justice Program 
        Development between the Assistant Attorney General and the 
        various program offices. All would report directly to the AAG's 
        office. This responds to a concern, primarily from the violence 
        against women community, about ``downgrading'' these offices. 
        The chart also reflects a change in the use of the name 
        ``sections'' to ``offices.''
          * * * * *
Areas where there would be no change from the Administration's 3/99 
        proposal
  <bullet> PAS's: This proposal continues to provide for only one PAS 
        in the Office of Justice Programs (the Assistant Attorney 
        General).

  <bullet> Final grant authority: This proposal would continue to carry 
        forward current law providing for final grant authority in the 
        AAG (except in the areas of research, evaluation and 
        statistics). This, and other streamlining features of the 
        restructure plan, result in clearer lines of authority within 
        OJP and the opportunity that a more unified agency can work 
        toward a common mission, rather than a collection of largely 
        independent components pursuing separate agendas.

  <bullet> Research and statistics consolidation: This proposal would 
        continue to provide for the consolidation of all research and 
        evaluation in NIJ, and all statistical work in BJS.

  <bullet> Subject area consolidation: This proposal continues to 
        provide for offices which consolidate programmatic work in 
        topical areas, eliminating much of the overlap and duplication 
        which exists under OJP's current structure.

  <bullet> Geographically-based grant administration: This proposal 
        continues to provide for place-based routine grant 
        administration. This concept, which grew out of the Attorney 
        General's notion of ``city desks'' early in the Administration, 
        has received broad support from many state and local 
        practitioners.

  <bullet> ``Information central'' concept: This proposal continues the 
        recommendation for one central point of information for 
        interested state and local jurisdictions, elected officials and 
        practitioners about the wealth of assistance available from 
        OJP. This Office would provide more sophisticated and more 
        comprehensive ``triage'' help for the field than do the 
        plethora of current OJP bureau and office clearinghouses. 
        Practitioners with established contacts within OJP would, of 
        course, be free to continue to communicate with those offices 
        and bureaus directly.


                                <all>

</pre></body></html>
